<html>
<title> - U.S. ASSISTANCE TO AFRICA: A CALL FOR FOREIGN AID REFORM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       U.S. ASSISTANCE TO AFRICA: 
                     A CALL FOR FOREIGN AID REFORM 

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2009

                               __________

                           Serial No. 111-55

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-842 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California
               Noelle Lusane, Subcommittee Staff Director
          Sheri Rickert, Republican Professional Staff Member
                     Antonina King, Staff Associate























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Earl Gast, Senior Deputy Assistant Administrator, Bureau for 
  Africa, United States Agency for International Development.....     3
Steven Radelet, Ph.D., Senior Fellow, Center for Global 
  Development....................................................    23
Ousmane Badiane, Ph.D., Africa Director, International Food 
  Policy Research Institute......................................    39
Meredeth Turshen, D. Phil, Professor, Edward J. Bloustein School 
  of Planning and Public Policy, Rutgers University..............    53
Mr. Bill O'Keefe, Senior Director of Policy and Advocacy, 
  Catholic Relief Services.......................................    66

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Earl Gast: Prepared statement................................     6
Steven Radelet, Ph.D.: Prepared statement........................    27
Ousmane Badiane, Ph.D.: Prepared statement.......................    42
Meredeth Turshen, D. Phil: Prepared statement....................    58
Mr. Bill O'Keefe: Prepared statement.............................    68

                                APPENDIX

Hearing notice...................................................   106
Hearing minutes..................................................   107


        U.S. ASSISTANCE TO AFRICA: A CALL FOR FOREIGN AID REFORM

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:07 p.m. in 
room 2172, Rayburn House Office Building, Hon. Donald M. Payne 
(chairman of the subcommittee) presiding.
    Ms. Watson [presiding]. The committee has officially come 
to order. Congressman Flake, would you like to make an opening 
statement? All right, then I will make mine.
    This is a very important hearing that the chairman has 
chosen to hold at this time, and this hearing is concerning 
United States assistance in Africa, and in regards to global 
health. As a nation, we are at a critical crossroads. The 
current economic crisis has highlighted the need for measure 
effectiveness of every dollar that the government spends. The 
American people now demand a more transparent government, and 
one that works well on behalf of the people.
    Even through the eyes of the government, and even though 
they have turned inward in the past few months, we must 
remember that economic changes in the United States have 
repercussions around the world. Africa is in need of aid now, 
as much as ever. Malaria, HIV ravaged the continent, leaving 
many adults unable to be productive members of society. The 
number of orphans in many African nations is also on the rise.
    The demographics of the nation are shifting as well. Unlike 
developed nations--we have been able to somewhat control our 
HIV and AIDS epidemic--African nations are prominently and 
predominantly populated by the elderly, who are taking care of 
the orphaned youth. The most productive age group, the young 
adults, have been victims of HIV and AIDS. The effect of global 
climate change is beginning to show.
    The fertile lines at the base of Mount Kilimanjaro for 
years have been home to the coffee growers of Tanzania. 
However, the recent shifts in temperature patterns have caused 
drought in this area for also the last few years. The farmers 
that inhabit this region, who were the breadbasket of the 
nation and of the region, now require food assistance just to 
stay alive. Many are turning to hunting and deforestation for 
income, which further exacerbates the situation.
    Global disease patterns are changing as well, and as 
temperatures rise in the flatlands, malaria-carrying mosquitoes 
are moving higher into the mountains. Populations traditionally 
not at risk for malaria are now being exposed. These changes 
are occurring as we are trying to confront the problems that 
Africa faces today, and has faced for many years. 
Infrastructure has been lacking in many parts of the continent.
    There are no roads or health clinics, and very little 
access to quality education. Urban populations, predominantly 
living in slums, are facing a dual burden of disease and 
chronic diseases, and political strife, still plaguing many of 
the nations on the continent. Many different government 
agencies, USAID, DoD, and the Millennium Challenge Corporation, 
are working to alleviate some of the problems on the continent.
    Each of these groups performs a vital task, but their 
efforts are disjointed. Perhaps it is time for the United 
States to resume a leadership role and provide an overall 
vision for the humanitarian assistance community. So we are 
very pleased to have Mr. Gast here today.
    Okay, Mr. Boozman, do you have any opening remarks?
    Mr. Boozman. No, ma'am, just that I am excited to hear the 
testimony. Thank you very much.
    Ms. Watson. Thank you.
    I ask for unanimous consent that the ranking member's full 
statement be included in the record.
    Now, we are going to have two panels this morning, one with 
our representative from the administration and a second panel 
comprised of private witnesses. Our administration witness is 
Mr. Earl Gast, senior deputy assistant administrator for Africa 
of the United States Agency for International Development. Mr. 
Gast has served as USAID's senior deputy assistant 
administrator for Africa since April 2008.
    He is responsible for overseeing operations in the Bureau's 
offices of Sudan Programs, East African Affairs, Administrative 
Services and Development Planning. This 15-year USAID veteran 
has received numerous awards and commendations for his 
dedicated service. Most notably, he received the agency's Award 
for Heroism in 2004, and in 2003, the Distinguished Unit Award 
for his work in Iraq. Prior to his appointment to the Africa 
Bureau, Mr. Gast has served as USAID Regional Mission Director 
for Ukraine, for Belarus, for Moldova, and as a USAID 
representative to the U.N. agencies in Rome in 2004.
    Mr. Gast began his career with USAID in 1990 as a Project 
Development Officer for USAID Philippines, where he led designs 
of major United States assistance projects, including large 
infrastructure programs in Mindanao. Mr. Gast received a 
master's degree in political science and Middle East studies in 
1987 from George Washington University. He graduated summa cum 
laude from the University of Maryland in 1984 with a bachelor's 
degree in history and criminal law.
    He speaks Russian and Arabic in addition to his native 
English. So we want to thank you very much for your service. We 
commend you for the work you have done in the past. We look 
forward to the work you will be doing in the future, and we 
would like you to proceed at this time with your testimony.

      STATEMENT OF MR. EARL GAST, SENIOR DEPUTY ASSISTANT 
  ADMINISTRATOR, BUREAU FOR AFRICA, UNITED STATES AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Gast. Thank you, Congresswoman. You know my history 
better than I do. And thank you, Ranking Member Smith for your 
comments. It is really a pleasure and an honor to be here 
before this subcommittee, and I hope that in the future we have 
a chance to interact more with the members and also the staff 
about USAID programs and development issues in Africa. I will 
make a brief oral statement, and we have also submitted a 
written statement for the record.
    The last 10 years, I have seen an unprecedented flow of 
U.S. Government assistance in Africa, in an attempt to help 
Africa emerge from poverty. USAID's budget alone for Africa has 
more than quadrupled from 2000 to 2008. Last year, our 
assistance level was nearly $5.5 billion. The benefits of this 
investment are being felt by millions of Africans all across 
the continent, but as you correctly point out, very real 
challenges remain.
    Today, I want to talk to you about what our assistance 
programs in Africa are doing, what we have accomplished, and 
what we see as some of the major challenges as we move ahead. 
Wars in Angola, Burundi, the Democratic Republic of Congo, 
Liberia, Sierra Leone and Uganda and southern Sudan, have ended 
or have dramatically abated. At the same time, the tragedy in 
Darfur has escalated, unrest has wracked Kenya, Somalia remains 
ungoverned, and economic mismanagement and political 
suppression have brought Zimbabwe to the brink of collapse. But 
there are signs of positive change.
    Across the continent, child mortality has fallen 14 percent 
since 1990, Africa's gross domestic product has grown, on 
average, 5 percent since 2005. We believe we are making a 
difference, but again, much remains to be done. Let me point 
out a few quick examples of the impact of our assistance. 
Exports to the United States through AGOA, the African Growth 
and Opportunity Act, have increased eight-fold since it began 
in 2000.
    USAID has put a lot of emphasis on building public-private 
partnerships in order to leverage private funding. In Africa, 
we have been successful. We have 270 partnerships, and with our 
$420 million that we have put up, we have received a five-fold 
match from private sector organizations. Our education programs 
have benefitted over 61 million students, teachers, education 
administrators and community members across 40 countries, and 
girls' participation in education has increased an average of 
25 percent over the past 10 years.
    Ranking Member Smith, you brought up the issue of PEPFAR. 
USAID, in partnership with other United States agencies 
implementing PEPFAR, have helped to put nearly 1.7 million 
Africans on treatment. Since its inception, the President's 
Malaria Initiative has cut child deaths from malaria in Zambia 
by 30 percent, and the number of children infected with malaria 
by half in 2008. In Rwanda, severe malaria cases were 
significantly reduced by 64 percent at 19 health facilities in 
2007.
    Our vision for the future is to capitalize on these gains 
and strengthen our African partners so that we can face new 
challenges jointly. We are committed to the principle of 
strengthening country ownership, and that means enabling 
countries to define and advance their own development agendas. 
Likewise, we are working to build more effective and inclusive 
partnerships among both Africans and other donors.
    We work with and through African organizations such as the 
African Union, the Common Market for Eastern and Southern 
Africa (COMESA), the Economic Community of West African States 
(ECOWAS), and the Southern African Development Community (SADC) 
to increase the effectiveness of our assistance and to expand 
accountability for development results. At the same time, we 
recognize that there are ongoing and new challenges that must 
be addressed to sustain and expand these achievements. I will 
touch on a few of those.
    In any society, productivity is inextricably tied to 
health. In Africa, people in their most productive years are 
often prevented from achieving their potential by acute and 
chronic illnesses, such as tuberculosis, HIV/AIDS, malaria and 
cholera. Keeping trained medical staff in those countries, 
improving the supply chain so that clinics are stocked, and 
addressing the acute weaknesses of health systems throughout 
Africa, are all urgent priorities for USAID and development 
agencies.
    Despite gains, extreme poverty continues to plague the 
continent. Four in ten Africans, more than twice the developing 
world average, live on less than $1 a day, and the 2008 rise in 
food prices worldwide further distressed the extremely poor 
African households. In order to lift people out of poverty, the 
gross domestic product for the continent must consistently 
exceed 5 percent. This was starting to happen.
    Unfortunately, with the world economic recession, growth in 
Africa, according to the latest IMF report, is expected to grow 
only by 1.7 percent in 2009. Another challenge that you have 
pointed out is the proportion of youth. Right now it 
represents, people under the age of 15 represent, 50 percent of 
the population, and by using the current growth rate for the 
continent, the population is expected to more than double, 
reach 1.7 billion, by 2050.
    So this rapid population growth will impede the ability of 
all sectors, agriculture, health, education, and certainly will 
impact on economic growth.
    With the approaching demographic challenges, it is even 
more important that Africa have strong governance structures in 
place, and while in 2009 Africa is home to some promising 
examples of new democracies, it also contains some of the more 
disheartening glimpses of political stagnation, democratic 
backsliding, and state failure. I will just point out very 
briefly: The four recent coups in Equatorial Guinea, 
Mauritania, Guinea and Madagascar serve as examples.
    There are some success stories, however. We are very 
pleased with the peaceful transition of power in Ghana and in 
Zambia. In Zimbabwe, we continue our efforts to promote a 
democratic transformation in the face of dire economic 
hardships. While the transition government between ZANU-PF and 
the MDC is now in place, it has had limited achievements, and 
there remain serious issues to be dealt with, including ongoing 
land seizures by the government, the denial of due process, and 
a lack of progress on media restrictions and judicial reforms.
    The U.S. Government strategy during the transition period 
over the next 2 years, leading up to what we hope will be free 
and fair and credible elections, will focus on targeted 
interventions that build upon our existing humanitarian 
programs. I want to state clearly before the subcommittee that 
we will not provide any assistance to Robert Mugabe or ZANU-PF 
members who have undermined Zimbabwe.
    Liberia is a bright spot in Africa where we have seen an 
impressive transition from a war-torn society to a promising 
developing economy and society. President Johnson-Sirleaf's 
strong leadership in moving Liberia's economic and political 
progress forward, and in addressing key impediments to 
development, is to be commended. We are pleased to note that 
they have made sufficient progress on the MCC indicators to 
qualify as an MCC threshold country.
    Finally, conflict remains a significant challenge that 
devastates the lives and livelihoods of the people, and can 
destabilize neighboring countries. Two countries in particular 
are heavily affected by conflict--Somalia and Sudan. In 
Somalia, we are supporting the current transitional Federal 
Government, and we believe that restoring the rule of law and 
effective governance is absolutely key to the region.
    Sudan stands as another leading example of the human cost 
of conflict and instability. The signing of the Comprehensive 
Peace Agreement in 2005 created an incredible opportunity to 
advance Sudan on the road to a peaceful and just Sudan, but 
serious challenges remain to the implementation of the CPA. The 
conflict in Darfur remains dire, with more than 4.7 million 
persons displaced by the conflict, and some 2.7 million persons 
living in IDP camps.
    We have witnessed the dramatic expansion of U.S. assistance 
over the past decade. I have given a few examples of how we 
have made a difference, but again, serious challenges remain. 
Thank you again for your time, and I welcome any questions you 
might have.
    [The prepared statement of Mr. Gast follows:]<greek-l>Earl 
Gast deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Watson. We want to thank you for what I consider a very 
comprehensive presentation. Just a few questions, and as you 
were talking about Zimbabwe and some of the troubles in that 
area, how are we coordinating with the African Union, and do 
they have the resources to be the overseers or the protectors 
in various states close to Zimbabwe, South Africa?
    Mr. Gast. Sure. If a State colleague were here, I would 
defer to him or her, but let me say that we do have a very 
close relationship with the African Union, we do have a U.S. 
Mission to the African Union, and we do have an USAID 
development professional seconded. So, the African Union is 
stepping up and member states are stepping up in providing 
troops. More troops are needed, and more funding is needed to 
support the peacekeeping troops.
    Ms. Watson. I am concerned, as well as the chair and I know 
other members, about streamlining the policy and its approach, 
as we deal with Africa, and we have been looking at USAID and 
how to readjust that, and the U.S. Government's 2006 report to 
the OEDC's Development Assistance Committee listed 26 Federal 
departments and agencies as implementers of official 
development assistance, and this fragmentation is kind of 
significant, and it shows the lack of an overreaching strategy 
that defines our global development priorities across all 
government agencies.
    The most recent attempt to consolidate programs under a 
single authority, the State Department's Bureau of Foreign 
Assistance, has actually only consolidated responsibility for 
about half of all U.S. foreign assistance, and can you speak to 
the need to streamline United States assistance toward Africa 
through a defined, unified policy and goals?
    Mr. Gast. I think this is the exception, and that is in the 
Africa Bureau, and when I say Africa Bureau, I am talking about 
USAID, the Africa Bureau over at NSC, and also the State 
Department, some 2 years ago came up with a National Security 
Policy Presidential Determination. I believe it came out in 
September 2008, and it represented the interagency, the main 
players in the interagency on development and diplomacy in 
foreign policy coming together and identifying collectively 
what the United States goals and objectives are for Africa.
    We obviously have a new team in place. We have a very good 
team over at State, and I know that they are adding more 
political appointees over in the Africa Bureau over at State, 
and also in the NSC, and we have been having biweekly 
coordination meetings. Obviously, the priorities are 
readjusting our policies in Somalia and Sudan and Zimbabwe, but 
once we get beyond that, we have a commitment to get together 
and identify collectively what our policy objectives and goals 
are going to be for the continent, and USAID is a player in 
that.
    Ms. Watson. Thank you. I am going to go now to Mr. Smith 
for questioning.
    Mr. Smith. Thank you very much, Ambassador Watson, and Mr. 
Gast, thank you for your leadership over the course of many 
years, including in places like Kosovo, which obviously needs 
it, but especially for your work on Africa. As I mentioned in 
my opening statement, the New Partners Initiative was a very 
successful endeavor under the Bush administration to bring in 
new grantees for PEPFAR funding and to promote sustainable 
programming by working with in-country NGOs, especially faith-
based groups in Africa.
    Does the new administration intend to continue this 
initiative with respect to HIV/AIDS funding, and are efforts 
being made to expand this initiative to all foreign assistance?
    Mr. Gast. One foreign policy reform that wasn't mentioned, 
but was started in the last administration, supported in 
Congress and absolutely embraced by the new administration, and 
that is the build-up of USAID's human capacity. One of the 
things that we are doing is, over the next couple of years, 
more than doubling the number of foreign service officers in 
Africa, and we are involved in the planning session; we are 
coordinating with State and also the NSC on that.
    What that will do is actually help us better tailor our 
programs to the local needs, to include identifying new 
partners. When we have a deficit of officers, we tend to use 
these large mechanisms, so to get to your point, which is, will 
smaller groups that have very targeted expertise be part of 
USAID's programs in the future? I anticipate that to be so.
    Mr. Smith. I would obviously strongly encourage it. I met 
with Archbishop Onaiyekan from Nigeria, and the Sultan of 
Sokoto was also traveling with him as part of Nigeria's Inter-
religious Council, and heretofore, they have been largely 
excluded from government funding, global funding, but our hope 
is, my hope would be strong, because I find this all over 
Africa as I travel, these faith-based groups provide an 
enormous network of volunteers, hospitals, clinics, and they 
don't get the funding that would enable them to reach out to 
additional people. They actually are trying to mitigate the 
problem of malaria, where 250,000 cases of malaria, as you 
know, and one-fourth of all cases are in one country, Nigeria, 
at least according to some estimates. So the more we are able 
to bring faith-based groups in and, I think, utilize that 
asset, the more we mitigate disease, and hopefully prevent 
disease in the first place.
    Mr. Gast. Great, thank you for your comment, and 
absolutely, our having more officers in the field will allow us 
to work with more local----
    Mr. Smith. Because very often, that is the hurdle they 
can't get over, the ability to write a program request, whereas 
some others have that capability. When it comes down to 
actually implementing, however, local, indigenous NGOs far 
exceed their capacity and capabilities. Finally, what 
procedures and policies are being implemented to ensure that 
conscience clause protections, enacted as part of the PEPFAR 
re-authorization, are continued?
    Does USAID have procedures and policies in place to ensure 
faith-based organizations are not only protected from 
discrimination, but are considered for funding in the context 
of the very unique benefits and advantages that they inherently 
provide in terms of service delivery in Africa?
    Mr. Gast. May I send you specifically what our policies are 
on that?
    [Note: The information referred to was provided by Mr. Gast 
to Congressman Smith during a briefing on Thursday, April 30, 
2009.]
    Mr. Smith. Okay, but does that continue? Is there a 
seamless transition from the previous administration to this 
one on conscience, because I would just say parenthetically, I 
am the one who offered that amendment on conscience protection, 
very contentious in the first go in 2003, but I think it proved 
itself enormously, and when we did the 2008 re-authorization, 
there was a strong consensus on both sides of the aisle, and 
conscience protection was actually increased and made more 
durable and more effective. I want to ensure that that is 
faithfully carried out, because again, that means buy-in from 
others who have heretofore been excluded.
    Mr. Gast. I don't wish to misstate it, but I will get back 
to you.
    Ms. Watson. Excuse me, may I interrupt you for a minute? 
Since we have a call on, I will ask Ms. Woolsey to raise her 
question, we will recess, and then when we come back, maybe you 
can have the manual or something ready for him, or just send it 
to us, and then you can respond to her question too. We have a 
call on, we have a few minutes left, so Ms. Woolsey?
    Ms. Woolsey. Thank you very much, Madam Chairwoman.
    Thank you, Mr. Gast. I just returned from the Easter break 
from a trip to Tanzania. The focus of our delegation, of our 
trip, was to study maternal mortality and how we can, and 
should, promote healthy mothers and reduce deaths in the third 
world countries, and this was Tanzania specifically, but I am 
sure it translates throughout Africa and other third world 
countries. Actually, I came back struck by how difficult and 
challenging it would be to live in a third world country, but 
primarily, how almost impossible it is to be a woman of 
childbearing age in a third world country where there is lack 
of family planning, where the cost of giving birth falls on a 
family if they want to go to a medical facility, how 
transportation is almost nonexistent, and expertise in 
equipment is lacking, all the way up to but not quite including 
the hospitals that are involved.
    We learned some shocking facts. We learned that problems 
due to pregnancy and childbirth are the leading cause of 
disease burden for women in developing countries, that a woman 
in sub-Saharan Africa has a 1 in 16 chance of dying in 
pregnancy or childbirth, compared to 1 in 3,000 risk in the 
United States, and that 40 percent of all child deaths each 
year, most of which are preventable, are linked to poor 
maternal health.
    So my question to you is, how should any foreign aid plan 
address the most primary needs of women and infants and 
coordinate with other donors to address this worldwide crisis, 
and can we do it, and how can we do it without taking away from 
the programs that we know are already successful, such as 
malaria and TB and AIDS? I mean, I am not suggesting that we do 
anything that is going to take away from the existing good 
programs.
    Ms. Watson. What we are going to do now is recess. There 
are four votes on the floor, and we will come back after the 
last vote and then you will, we will start off with you 
addressing Ms. Woolsey----
    Ms. Woolsey. Madam Chairwoman, I can't come back. I will be 
on the floor.
    Ms. Watson. Okay, can he give you a response it writing, or 
do you want to--the chair is----
    Ms. Woolsey. I would appreciate that, but I think we have 
time----
    Ms. Watson. Yes, the chair is here now, so then he can do 
it. I am going to leave and go to the floor. Okay.
    Mr. Chairman?
    Ms. Woolsey. Whatever.
    Mr. Payne [presiding]. Yes, we have time for you to 
respond, and let me certainly apologize. I was at a special 
program, a day of remembrance, and I was asked to be with 
President Obama, and survivors of the Holocaust at a program 
that just ended, and so I really apologize, but I was unable to 
leave that very important event that was in the Rotunda of the 
Capitol. So we have enough time for the response to Ms. 
Woolsey's question.
    Mr. Gast. You raise a very good question. We also are 
concerned and we also appreciate your not wanting to take from 
other programs, and neither do we. We don't want to take 
resources out of PEPFAR, we don't want to take resources out of 
the Malaria Initiative, but what we did do was we went back to 
Congress and we argued for additional money for maternal and 
child health funding, and the good thing was that Congress came 
back and said yes, we are giving you additional funding, but we 
want a strategy. We want to understand what your strategic 
approach is to allocating this funding, and so, we have worked 
over the past 6-8 months in coming up with the strategy that 
has been submitted to Congress, and what it essentially does is 
that it is a matrix in allocating the funding, certainly based 
on need, but also based on the ability of the country to 
utilize the funds effectively.
    Ms. Woolsey. Have we seen the report, and have you gotten 
any input back from us?
    Mr. Gast. We have identified 30 priority countries, and 
there are several in Africa, and I do believe that Tanzania is 
getting additional funding. I will have to look at my colleague 
in the back. I do believe that Tanzania is one of the 30 
countries worldwide.
    Ms. Woolsey. Did I see a nod yes? Okay, but I am not only 
talking about Tanzania. I am talking about all these countries.
    Mr. Gast. Yes, but you picked a priority country.
    Ms. Woolsey. Thank you very much.
    Mr. Gast. Thank you.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Mr. Payne. Well, thank you very much. As I indicated, once 
again, I apologize for being delayed, but let me belatedly 
welcome all of you here. We are certainly pleased to have you 
here, Mr. Gast, in your very important role as the senior 
deputy assistant administrator. We certainly look forward to 
working closely with you. This particular meeting, as you know, 
is a look at United States assistance to Africa and a call to 
foreign aid reform, and we want to really discuss how we feel 
there can be a debate about foreign aid and to determine how it 
can be more effective.
    We understand there is a recent book out that I haven't had 
the opportunity to read yet, talking about the failures of 
foreign aid, and I am sure that there are; however, if we look 
at what is happening now in malaria where we are almost 
eliminating it after a year or 2 of concentrated effort, I am 
not so sure that we need to only highlight the failures but 
also the tremendous successes that have happened through 
foreign assistance. We are particularly interested, though, in 
the effectiveness of U.S. assistance to the continent, a 
discussion which is inevitable particularly because of the 
world global problem, because of the fact that we all are going 
to be asked to tighten our belts.
    We are all going to have to really scrutinize and evaluate 
programs very, very carefully, and so a look at foreign 
assistance is very, very important at this time. We have 
certainly seen significant increases in aid funding to Africa 
in recent years, and I have said on several occasions that I 
applaud President Bush's cooperation in programs toward Africa, 
particularly the PEPFAR program and the Millennium Challenge 
Corporation, where much of the increase in funding to Africa 
has come from.
    Although we believe these two programs are successful, it 
is going to be a challenge to keep them going in addition to 
some of the areas where we have fallen behind. There are other 
successes, which the USAID witness highlighted in his 
testimony, as we have already heard. Certainly, USAID and what 
we do make us proud to be Americans as we move around the 
world.
    However, I also feel that we must be careful and assess 
with a lot of scrutiny what our assistance is actually 
contributing in terms of long-term, sustainable development, 
and that is what a key is, to not simply rest on our laurels. 
Even with our PEPFAR funds, we need to see if we are creating 
health systems that, when funding decreases, that those 
countries that have been privileged to be PEPFAR recipients 
will have the capacity to maintain the health system.
    That is what the real goal is, so assistance is sustainable 
over a long-term period. We also know that it is not enough to 
simply increase funding levels, but like I said, we have to be 
sure that we have strong institutions. I submit that we have 
gotten away from some of the core development work that we have 
looked at, and the fact that, as I mentioned earlier, some of 
the things that we did before have sort of been lost in the 
surge in certain areas, and what we have to really think about 
is having a balance in our approach.
    We should get back to basics. One is agriculture 
development. USAID has explored the whole question of 
agriculture--maybe two decades ago--and food security, as we 
see, is a very, very important issue today. We can't 
continually have food aid. We even have seen it diverted in 
certain areas. So we need to get back as we once were in the 
development of agriculture assistance toward the health system, 
as I mentioned, and consider how we can have a sustainable 
education program.
    However, if we are not improving higher education, if we 
are not improving the capacity of the educational system to 
absorb the new students, then we are having a diluted 
educational system, and nation development into areas like 
science and technology will fall behind unless we have a strong 
higher education program.
    I certainly commend President Obama's G-20 announcement 
that he will double support for agriculture and rural 
development to over $1 billion, aimed at helping poor nations 
achieve food security. In terms of our assistance more broadly, 
I welcome the administration's moves toward increased 
multilateralism and greater cooperation with other donors, and 
I think that this is very key as we move into the future.
    I feel that we must take a more integrated, long-term and 
regional approach to our foreign assistance. I feel that these 
can be balanced with short-term objectives, but as we deal with 
short-term objectives; it should really be based on what we 
feel national security and strategic interests will finally 
roll out. In conclusion, we must also hold ourselves 
accountable to the funding we provide intended for development 
in Africa and elsewhere.
    We must be able to ensure our taxpayers that the money is 
used wisely, and we can do that by ensuring that the intended 
recipients of aid actually get the aid as intended to do. 
Secretary Clinton spoke passionately about this issue before 
our committee yesterday, highlighting that less than 50 cents 
on the dollar reaches the people, where the bulk of funds go to 
contractors and associated costs, and I think we really have to 
take a look at this whole issue.
    This does not mean that we eliminate contractors. They are 
certainly essential and important. However, it does mean that 
we need to strengthen USAID. The fact that we have not expanded 
the agency and have depended on contractors tends to leave us 
minimizing what we do. Like I said, we are not talking about 
eliminating contractors. They are very important; they are 
essential. It is just that we need to figure out a way we can 
get more bang for the buck by using contractors, but in some 
way expand our capacity to do it ourselves.
    As you know, our witnesses, and we have already heard our 
Acting Assistant Secretary for Africa, Earl Gast; senior fellow 
at the Center for Global Development, Dr. Steve Radelet will be 
on the next panel; director for Africa at the International 
Food Policy Research Institute, Dr. Ousmane Badiane; from the 
Ed J. Bloustein School of Planning and Public Policy at Rutgers 
University, Dr. Meredeth Turshen; and Catholic Relief Services 
senior director for advocacy, Bill O'Keefe.
    We will certainly look forward to the other witnesses, and 
at this time, I have been instructed to hit the gavel and say 
that we are not in recess, and this is a part of the official 
transcript so that will be recorded. We reconvened from that 
very moment of recess, so we are in real session now for a very 
short period of time.
    I wonder if I can ask, and I don't know if it is already 
been asked, but in your opinion, what are the greatest 
strengths and weaknesses of the main United States agencies 
delivering foreign aid to Africa--USAID, the Millennium 
Challenge, and the Global AIDS Program? To what extent are 
their efforts appropriately coordinated in your opinion? What 
roles should African governments play in implementing United 
States assistance programs?
    To what extent do you believe that USAID should follow the 
MCC model and provide more funds directly to African 
governments to implement aid programs themselves, and even 
perhaps the criteria used by MCC on criteria of governance and 
so forth. To what extent, if at all, should this include direct 
budgetary support? What accountability measures should U.S. 
taxpayers expect under such assistance? If you could try to 
tackle any part of that, that would be appreciated.
    Mr. Gast. Which part?
    Mr. Payne. Any of the above.
    Mr. Gast. Let me start with your first question, which is 
comparing the strengths and weaknesses of the various 
development agencies of the U.S. Government, and I may have a 
bias, because I come from USAID, but I have worked with MCC and 
have worked with PEPFAR, so I do have some knowledge. I would 
say that our greatest strength as USAID, and the U.S. 
Government's greatest strength is the field presence of USAID. 
You know that we have 23 bilateral missions and 3 regional 
missions in Africa, and the way that we program resources, some 
of the money certainly goes in supporting government policy 
reforms at a macro level, but the other strength of the agency, 
of USAID, is that we are not encumbered by delivering all of 
our assistance through government structures.
    We can then work with civil society organizations, so that 
they can provide a counterbalance to government. We can work 
with independent media. We can work with private sector 
organizations, again, so that there is an effective balance 
among all the power centers in a country. MCC has a terrific 
advantage in that it doesn't come weighted down with a lot of 
directives, let us say. They can come in with a large sum of 
money, and largely, their compact programs have been on 
infrastructure, and we have worked very closely over the years 
with MCC to have a coordinated approach.
    In fact, my previous job, I was Mission Director in 
Ukraine, Regional Mission. Two of my missions were MCC 
countries, so I worked very closely with MCC and the government 
in shaping the program and in facilitating MCC's entry. We do 
that in Africa as well, and in fact, I should say that many of 
the MCC country directors are former USAID directors who have 
retired from the Foreign Service and have come back to work 
with MCC in development.
    We, back here in Washington, the Africa Bureau coordinates 
with Rodney Bent and his team on a quarterly basis, and we talk 
about broad issues and some country-specific issues, to make 
sure that we are on the same wavelength and that if there are 
any issues that need to be resolved at a senior level, we can 
do it at that point. With PEPFAR, PEPFAR is less of an 
implementation organization, as you know.
    It is one that develops the programs, the concepts and 
strategies, and we and other U.S. Government agencies have been 
working with PEPFAR in trying to influence strategy, but 
certainly carrying out the programs in the field.
    Mr. Payne. Let me ask another question that has been 
bounced about here on Capitol Hill. Although it has actually 
gone into effect under the past administration, the whole 
question about civilian and military coordination. You know, we 
have the U.S. Africa Command, and I just wonder, what 
coordination mechanisms have been created to reconcile 
Department of Defense and USAID objectives with respect to 
DoD's civilian, humanitarian and development activities in 
Africa?
    What role does USAID's Office of Military Affairs play in 
Africa? Have the presence of USAID personnel and DoD Africa 
Command and other USAID OMA improved the conduct of United 
States military humanitarian civic actions and reconstruction 
projects in Africa? In Africa, what role do Chief of Missions 
play in ensuring necessary consultation and coordination 
between USAID personnel and DoD personnel in the countries of 
responsibility are interacting?
    Let me just say that there are people who, some of us, in 
particular, me, that have been concerned about AFRICOM, and the 
way that it initially was introduced. We felt that there was 
not enough preparation done, as it was not only introduced to 
African countries, but also to the Congress, we read about it--
at least our committee. Now, maybe Department of Defense 
committees had a little more involvement in it, but it 
certainly was out-of-hand rejected by 52 out of 53 sub-Saharan 
African countries when it was first mentioned.
    People felt that we were militarizing USAID. If you are in 
the alliance of the willing, then you get money. If you are not 
willing to do that, then you don't, and secondly, that USAID, 
the image was, would have to go to see the general in charge to 
see whether it is permissible to start our new agricultural 
program, et cetera. What is your take on AFRICOM?
    Mr. Gast. I think the situation has been steadily 
improving, that is, the coordination. It is interesting, USAID 
has very few personnel. We have about 277 Foreign Service 
Officers on the entire continent, yet we have huge monetary 
resources. The DoD approach is quite the opposite; very little 
on the program side, but a lot of people, and unfortunately, in 
the early days, especially with CJTF-HOA based out of Djibouti 
wanting to initiate development activities or humanitarian 
activities, the human cost of interacting with DoD was 
excessive for us, and also for embassies.
    What we have done over the last year is gotten an agreement 
with CJTF-HOA, and now with AFRICOM, on how activities are 
going to be coordinated, and that is that if--and by the way, 
we are talking about a small amount of resources. I believe the 
amount of money that CJTF-HOA managed last year was $11 
million, so it is a very small sum of money, but whenever they 
have ideas for humanitarian assistance, they are to come first 
to the USAID Mission Director, and if it is endorsed by the 
USAID Mission Director, it is then presented to the country 
team, and if the country team, headed by the Ambassador, of 
course, agrees that it is appropriate for the country, only 
then will the activity go forward.
    So I think that that is, it is becoming a very effective 
coordination mechanism, and it is becoming an effective 
mechanism in-country. You rightly point out that we do have 
persons seconded over to AFRICOM. We have a Senior Development 
Advisor, Senior Foreign Service Officer, and we also have two 
others who have been seconded over to AFRICOM. I would say 
three USAID persons is not enough, but given the size of our 
organization, it is, I think, a very valuable contribution, and 
they greatly appreciate it.
    Mr. Payne. The rationale is that the Department of Defense 
has the robust capability to do things. I have heard this 
argument, and of course, because the Department of Defense, you 
know, tend to be able to get what they want in appropriations 
over the past several years, USAID closed several offices in 
Africa during the last administration. I wonder what the Obama 
administration intends to do. Is it going to try to make the 
USAID more, build it up again, or will we keep it at these same 
levels?
    Mr. Gast. We, during the last administration, and it is 
been endorsed by this administration, and certainly with this 
bipartisan support of Congress, is our Development Leadership 
Initiative, which aims at doubling the number of Foreign 
Service Officers by 2011 or 2012. That has been supported and 
endorsed by Secretary Clinton, and we are well on our way to 
doubling the Foreign Service force. Definitely, there are 
issues.
    Space is an issue on the continent, but we are expecting to 
open additional missions over the next several years.
    Mr. Payne. Well, that is good. I certainly look forward to 
a strengthened USAID operation, and I hope that we can have a 
balance with the growth of the military. You know, that is how 
some countries operate in Africa. In the old days, you know, 
the military was the one that dispensed anything and 
everything. We really don't want to have it look like they were 
doing the right thing when they should have been working 
through civilian operations. Thank you very much.
    I think I will call this hearing into recess. We have 
several other votes coming up, and so I would ask the witnesses 
on the second panel if you would remain. We have three 5-minute 
votes, one of which I am probably going to miss, which is on 
now with 1 minute left. Then there will be two other 5-minute 
votes, so that is about 10 or 12 minutes, one vote to recommit, 
and then final passing, so it will be between 15 and 25 
minutes, 15 minutes at the least.
    It is according to whether we have a recommit vote, whether 
it will be longer. So the meeting stands in recess. Thank you.
    [Recess.]
    Mr. Payne. Once again, thank you all, very much. As you 
know, this is rather unusual today and so if we invite you back 
again, it is not going to be like this, we do not believe. The 
hearing will resume and we move on to the second panel.
    First, we have Steven Radelet. Radelet is a senior fellow 
at the Center for Global Development, where he is working on 
issues related to foreign aid, developing country debt, 
economic growth and trade between rich and poor countries. He 
was, in the past, Secretary of the United States Treasury for 
Africa, the Middle East, and Asia from January 2000 to June 
2002. In his capacity, he was responsible for developing 
policies on United States financial relations with the 
countries in the region, including debt rescheduling and 
programs with the IMF, the World Bank, and other international 
financial institutions. From 1990 to 2000, Dr. Radelet was on 
the faculty of Harvard University, where he was a fellow at the 
Harvard Institute of International Development, Director of the 
Institute of Microeconomic Programs, and lecturer on economics 
and public policy. He was also a Peace Corps volunteer in 
Western Somalia from 1981 to 1983. He currently serves as an 
economic advisor to the President and Minister of Finance of 
Liberia. His research and publications have focused on foreign 
aid and economic growth, financial crisis, and trade policy in 
developing countries, especially in sub-Saharan Africa and East 
Asia.
    Next, we have Dr. Badiane. I am having a tough time today. 
Dr. Ousmane Badiane is the Africa director for the 
International Food Policy Research Institute (IFPRI). In this 
role, he coordinates IFPRI's work in the areas of food policy, 
research, capacity strengthening, and policy communications in 
Africa. He is also in charge of IFPRI's partnership with 
African institutes dealing with the above. He was a needs 
specialist for food and agricultural policies for the Africa 
region at the World Bank from January 1998 until August 2008. 
He previously worked at IFPRI as a senior research fellow from 
1989 to 1997, where he led the institute's work on market 
reform and development. While at IFPRI, he taught as an adjunct 
professor at Johns Hopkins School of Advanced International 
Studies from 1993 to 2000. He received a master's degree and 
Ph.D. in agriculture economics from the University of Keil in 
Germany.
    Next, we have Dr. Meredeth Turshen, professor of the Edward 
J. Bloustein School of Planning and Public Policy at Rutgers 
University. Her research interests include international 
health, particularly African women's health, where she 
specializes in public health policy. She holds a second 
interest in the impact of war on women. She has written several 
books, including The Political Ecology of Disease in Tanzania 
and What Women Do in War Time, Gender and Conflict in Africa. 
Dr. Turshen serves on the board of Association of Concerned 
African Scholars, as treasurer of the Committee on Health in 
Southern Africa, as a contributing editor of the Review of 
African Political Economy. She holds a position on the 
editorial board of the Journal of Public Health Policy. Dr. 
Turshen has lectured widely in the United States and abroad and 
as a speaker on international health policies, women health in 
Africa, and, as I mentioned, the impact of war on women.
    Last, but not least, we would like to welcome Mr. O'Keefe. 
Bill O'Keefe is Catholic Relief Services' senior director for 
advocacy, based at its headquarters in Baltimore. He oversees 
efforts to change foreign policy in ways that promote justice 
and reduce poverty overseas. This involves lobbying Congress 
and the administration on a range of foreign policy issues and 
educating United States Catholics about international issues 
involving them and public campaigns for policy change. Mr. 
O'Keefe received his bachelors of science, cum laude, from Yale 
University in 1984 and a master's in public policy from Kennedy 
School of Government at Harvard in 1987. He joined Catholic 
Relief Services in 1987 as project manager in Tanzania, 
designing and monitoring community development projects. And he 
has in the past served in various capacities with CRS. He was 
appointed senior director for advocacy in 2003.
    Let me thank all of the witnesses and we will start with 
you, Dr. Radelet.

 STATEMENT OF STEVEN RADELET, PH.D., SENIOR FELLOW, CENTER FOR 
                       GLOBAL DEVELOPMENT

    Mr. Radelet. Thank you, very much, Chairman Payne. Thank 
you for holding this hearing this afternoon. Today, of course, 
we face enumerable challenges in Africa and around the world: 
Two wars in Iraq and Afghanistan, challenges of terrorism and 
piracy off the coast of east Africa, the continued spread of 
disease, and, of course, the global economic crisis and 
deepening poverty, as a result of that. At times like this, the 
world looks to the United States for leadership and it is 
tempting for us to turn inwards. But for us to do this at this 
point would be counterproductive for us and for the rest of the 
world and it would be a terrible mistake to do so. For better 
or for worse, the world sees and believes that the United 
States caused the global crisis and for us to step back and--
and whether that is true or not is irrelevant--but for us to 
step back from that just when people in countries are looking 
for our assistance, I think would really be a mistake for us to 
do it.
    Instead, it creates an opportunity for the United States to 
strengthen its leadership role through smart power and other 
efforts to create a better and safer world over the long run. 
In particular, I think today there is a great opportunity in 
Africa. Americans tend to still think of Africa as a place of 
African big men rife with corruption, no democracy, no economic 
opportunities, and deepening poverty. But, actually, there are 
big changes underway and have been underway for the last 10 or 
15 years in Africa. By international indicators, in 1989, there 
were three democracies in Africa and today there are over 20. 
Some are fragile, some are less fragile. I was glad to hear in 
the early part of the hearing the mentions of the successful 
elections in Ghana and Zambia, among other places, which hardly 
get the press that some of the negative news gets. We have had 
over 10 years of 5 percent growth across most of Africa. The 
poverty rate, according to the World Bank, in Africa has 
dropped from 58 percent to 51 percent in the last 10 years, 
which is a remarkable change to have that kind of drop in just 
the last decade. So, there is a lot of good news across at 
least half the continent, if not more, and we have an 
opportunity today to help consolidate that progress and to help 
create stable and contributing members to the international 
community.
    But, it will take a full set of our tools of how we engage 
with developing countries, not just foreign assistance, but 
also changes in our trade policies, our health policies, our 
environmental policies, and a range of other policies. Now, all 
of those are important. Our focus today is on foreign 
assistance, so I will speak about that, but I think it is 
important to remember that that is but one tool in our tool 
chest of the ways that we can help support development and 
poverty reduction around the world.
    Our foreign assistance programs are far more successful 
than they are given credit for. It is very easy to pick out 
failures. But, as we heard earlier today, there are successes 
around the world and in Africa, from the HIV/AIDS programs and 
other health programs, to helping Liberia get back up on its 
feet, to education programs in various parts around the world, 
infrastructure and power programs, as well. And the programs 
generally do not get as much credit as they ought to get. But 
having said that, there are some significant problems. Our 
foreign assistant programs are out of date and they are pretty 
badly in need of significant modernization and reform and 
consolidation across agencies, as you mentioned today.
    I want to mention quickly just seven things that I think 
are important steps that need to be taken in the near future to 
strengthen and modernize our foreign assistance programs.
    Number one, it is hard to make progress without a strong 
leader. The first key step is for the administration to name a 
strong, capable leader as the USAID administrator. You had many 
questions this morning about the administration's new approach 
and they could not be answered, because we do not have the 
strong development leadership in place. The administration 
needs to name a strong leader at USAID. I believe they need to 
make that person a member of the National Security Council, to 
give that voice of development at that table on national 
security decisions. They, also, need to appoint the other 
leading positions in development around the government, at 
OGAC, at the MCC, at Peace Corps, and other kinds of positions. 
That is number one.
    Number two, we need a development strategy that articulates 
our goals for what we are trying to achieve as a country in 
developing countries, how we are going to achieve those, what 
the modalities are of our approach. We do not have a strategy 
for what we are trying to achieve. We need an interagency 
strategy led by the NSC, not just the State Department, but 
across many agencies that articulates a strategy of what we are 
trying to do, how we are trying to do it, in our engagement 
with developing countries. That strategy should be developed in 
parallel with the National Security strategy, the quadrennially 
defense review, and other strategies that are out there. But 
right now, the absence of a strategy puts us all over the map 
in terms of what we are trying to do.
    Number three, we need a much stronger legislative 
foundation for our foreign assistance programs. As you well 
know, the Foreign Assistance Act, written in 1961 and amended 
many times thereafter, is very much out of date, overburdened 
with too many amendments, some of which are at odds with each 
other and has not been re-authorized in two decades. And there 
is a time and an opportunity right now to rewrite the Foreign 
Assistance Act, to have a sure vision between the executive 
branch and the legislative branch on the roles and key issues 
going forward on foreign assistance. It would need to provide 
the executive branch with the authorities that it needs to 
address key issues on the ground, to have the flexibility to 
address the highest needs on the ground, and at the same time 
ensure rightful and effective oversight by the legislative 
branch. We have to get that balance back and I think rewriting 
the Foreign Assistance Act is key to that.
    Number four, we need a strong consolidated development 
agency. You mentioned earlier today that we have programs all 
over the place. By various counts, Congresswoman Watson 
mentioned 26 agencies according to the OECD report across the 
executive branch agencies that are delivering foreign 
assistance. The left hand does not know what the right hand is 
doing. They work at odds. There is duplication, there are gaps, 
and it is far too many agencies trying to achieve the same 
thing. We need to consolidate many of those programs, not 
necessarily all of them, into a strong and revitalized USAID or 
a successor agency. It needs new staffing. It needs strong new 
leadership. It needs the legislative foundation. It needs 
strong monitoring and evaluation programs and it really needs 
to be made into a strong 21st century development agency. And 
we can talk more about how that could be done, as we go 
forward.
    Number five, in Africa and in other regions, we need a more 
differentiated approach in how we work in different countries. 
Some countries are very well governed and we ought to be 
working very closely with governments and give those 
governments much more leadership in setting priorities and 
identifying the highest needs, not identifying all those needs 
here in Washington. The MCC is the first step in that process, 
where it supports countries that are moving in the right 
direction and lets them make the decisions, not us, on what the 
highest priorities are. In other countries where there is much 
weaker governance, we should be working with more NGOs and in 
parallel with the government, but being more opportunistic, 
working with the Ministry of Health, if that makes sense in 
that country, the Ministry of Education in a different country. 
It depends on the situation when it is a more poorly governed 
country. In situations like Zimbabwe or Somalia, it is much 
more difficult to work with the governments, we ought to be 
working with NGOs and faith-based groups to help provide 
support for basic services. So, we need a much more 
differentiated approach with different tools to fit different 
circumstances. For far too long, we have had one size fits all 
and we need to move away from that.
    Number six, we need to much better leverage our bilateral 
assistance with our multilateral assistance. The share of our 
foreign assistance that goes through multilateral channels have 
fallen to 10 percent--10 percent. One out of ten dollars goes 
through multilateral channels. And it is a missed opportunity 
for us to leverage assistance, use our dollars, and multiply it 
by the contributions of other member countries that have really 
fallen by the wayside during the last administration and I 
think needs to be rejuvenated.
    And, finally, all of this will take more money, as well as 
making sure that money is better spent. It is not just a matter 
of moving boxes. We need the resources to get the job done or 
we need to make sure that those resources are used effectively, 
not through the bureaucratic channels that we have now, and 
tracking those with an effective monitoring and evaluation 
program to make sure that the dollars we spend have the impact.
    So, it is a long list, but we have the opportunity to do it 
and the need to take on these reforms. It will not be easy. I 
do not underestimate the challenges at all, either for the 
legislative branch or the executive branch and it is even 
harder with today's global financial crisis. But, the need is 
great and we have the opportunity now to take on these 
challenges, to build a better and safer world. It is time to 
take advantage of the opportunity to really make our 
development programs a strong and effective pillar of both 
national security policy and humanity in general. Thank you, 
very much.
    [The prepared statement of Mr. Radelet 
follows:]Steven Radelet 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Payne. Thank you very much. Mr. Badiane.

     STATEMENT OF OUSMANE BADIANE, PH.D., AFRICA DIRECTOR, 
          INTERNATIONAL FOOD POLICY RESEARCH INSTITUTE

    Mr. Badiane. Thank you, Mr. Chairman, and thank you for 
this hearing, which obviously is of great importance to me, and 
thank you for inviting me. I have submitted a written 
testimony, so I will make a brief comment here. I will be 
talking about the economic development of Africa, agriculture, 
in particular, and then later in my testimony touch a little 
bit on the United States assistance.
    The first question that came up was, what are the key 
issues for Africa with respect to short-term and long-term 
development? And in starting to answer that question, I would 
like us to ask ourselves what do we need to do first to 
understand where Africa is today in terms of its economic 
performance and what that implies for its future development 
outlook. Africa has changed and we need to understand that 
change and understand how we are going to build on that change. 
It hasn't transpired to many places, although I have heard it 
around the table here this morning. But we need to really take 
a good look at what is happening in Africa and see how that can 
be used to propel us toward much high economic performance and 
much faster poverty reduction on the continent.
    Basically, what happened in Africa over the last 10-15 
years, one would have to go all the way back to the 1960s to 
find that level of economic performance. Africa has lost the 
1970s and the 1980s and the first half of the 1990s. But, 
growth has accelerated since. Somebody mentioned a 5-percent 
growth rate over the last 10-15 years. It was projected to go 
down to 3 percent and maybe now to 1.7 percent because of the 
crisis. But, growth accelerated over the last 10-15 years 
before the crisis. It has spread to many more countries. We 
have over the last 10 years more countries growing at a much 
faster rate than any time in the preceding 2\1/2\ decades 
before.
    Export performance in Africa has also been equally strong. 
For the first time in history, post-independence history, 
export growth in Africa has been higher than the world average 
from 2002 to 2005, both in terms of agricultural export value 
and volumes, unprecedented. Increases of FDIA, foreign direct 
investment into Africa, has even been the subject of an article 
in Time Magazine recently. When you look further, you see that 
macroeconomic indicators in Africa have improved greatly. 
Inflation has been down. Fiscal balances improved. Foreign 
exchange reserves have gone up. Currency valuation has been 
much more consistent.
    Now, to look forward as to what we can do and what the 
United States can do in Africa, we should ask ourselves what 
has been behind this remarkable recovery after 2\1/2\ decades 
of stagnation and how can we understand the factors behind it 
and, therefore, scale them up. I think that should be a 
starting point.
    First, what I would say is that we had very strong 
macroeconomic and social policy reforms across Africa. You look 
at governance effectiveness across many African countries. It 
has increased quite sharply. But, also, we have to recognize 
that the recent economic recovery, has not compensated for 2\1/
2\ decades of stagnation, from the 1970s, 1980s, to mid-1990s. 
We will still have large pockets of poverty across Africa and 
while the progress toward the poverty reduction goal, 
Development Goal has picked up, it is not going to be enough 
for many African countries to meet the Millennium Development 
Goal. The real challenge, therefore, that we have, Mr. 
Chairman, is how to accelerate and broaden the growth process 
that has taken place over the last 10 years and I think that 
should be the guiding factor in United States assistance to 
Africa in the coming years.
    I highlighted the recovery because I wanted to insist on 
the fact that it creates a very strong foundation for United 
States assistance to Africa. We have today far better 
conditions for much higher returns to investment in Africa, 
including United States assistance in Africa, then we have had 
over the last 20 years, or toward the end of the last century. 
We have two things that speak for that and I think that should 
not be lost to people deciding on United States assistance to 
Africa; the conditions are good for much higher returns in the 
future.
    While planning and implementation is improving greatly 
across Africa, the comprehensive Africa agriculture development 
program that has been adopted by the African Union, is being 
put in place by the NEPAD, New Economic Partnership for 
Africa's Development, and implemented by economic communities 
across Africa. African countries are moving toward evidence and 
outcome-based planning, peer review, tracking of progress, and 
mutual learning and adoption of best practices. I have very 
high hope for that program, which could provide a very strong 
basis for future engagement in Africa.
    As part of that program, African governments have committed 
themselves to allocating much more resources to agriculture, up 
to 10 percent of their national budget. The last time I looked, 
allocation to agriculture has gone up 75 percent from 2003 to 
2006. So something is happening that provides a very strong 
foundation for future United States assistance to Africa.
    Now, how do I assess the effectiveness of U.S. assistance 
to agriculture and food security? We all know that the United 
States invests quite a lot of money in safety nets and food 
emergencies. It is a leading force on the continent and I would 
say around the world. It has also invested quite a bit in 
raising productivity, in earlier years more than in later 
years. But, I do not think that the balance is there. The 
investments in emergency and safety nets far outweigh the 
investment in productivity.
    That may be a problem and here is why; the most effective 
way to reduce poverty is to raise the productivity of the 
resources that people depend on for their livelihood. And most 
of the issues we are tackling through safety nets and social 
interventions are the symptoms of poverty. And they are there 
because (A) growth is low, economic progress is slow, and the 
governments are not generating enough fiscal resources to 
supply the services that are needed by their citizens; and (b) 
productivity being low, households do not have enough resources 
to pay for access to such services. So, instead of focusing 
solely on the symptoms of poverty and on social services, 
assistance should recognize the importance to invest in raising 
the productivity of the poor people, who, in many cases, can be 
quite gainfully employed and be productive to improve their 
livelihood. So, I think this is very, very important.
    I would also at this juncture actually salute a very 
critical difference with respect to United States assistance in 
Africa. It is just not money that the United States is 
providing to Africa. It is also the quality of policy dialogue. 
It is the quality of expertise. USAID is doing an excellent job 
here. This is an area where I do interface with them. And that 
makes a difference. It sets the U.S. apart from other 
development agencies. These emphasize resources. The U.S. adds 
to it high-quality dialogue and expertise, and I think that 
ought to be maintained.
    Now, do I believe that reforming aid is necessary? My 
answer is yes, Mr. Chairman. As I said before, the imbalance 
between emergency and productive investment ought to be 
restored and corrected. I think that safety nets and emergency 
programs should emphasize productivity effects much more, 
because as you said and your colleagues also have said, we are 
in a time of crisis. Although there is all the determination to 
invest more in Africa, choices will have to be made. But I 
think it is very hard to make choices between meeting short-
term social needs and long-term productive needs.
    Therefore, the smart thing to do is how to create synergy 
between the two, not look at them as alternatives, either or, 
but how to maximize synergy between social services investment 
and productive investments. And the way to do that, I have 
highlighted a little bit in my written testimony. One entry 
point is, when we are dealing with health, education and safety 
nets, to ask ourselves: How can we maximize the short-term 
impact on the productivity of labor in the rural areas and in 
the agriculture sector?
    Health is a composite. It is not just one service. 
Education is a composite. It is just not service. And the 
composition of the different health services and education 
services do have real implication for the long-term growth in 
these economies. So, we do not have to choose between 
satisfying social needs and investing in growth, but we have to 
target the specific investment in social services that give us 
the biggest return in terms of raising productivity.
    Finally, Mr. Chairman, here are my recommendations. I think 
United States assistance to Africa ought to recognize the 
historic opportunity behind the current economic recovery and 
the efforts by African countries to improve policy planning and 
implementation and invest themselves more in agriculture. We 
have the best conditions for the highest returns to investments 
since, I think, the late 1960s. I, also, think that the U.S. 
should be investing and accelerating and sustaining the 
recovery process over the last 10, 15 years. It is important to 
think about what we do, but also how we do it. And I think 
here, we need a common denominator investing our assistance 
resources across the world and that common denominator should 
be: How are we contributing to raising the labor productivity 
and income at the end of the day. We have to make sure that 
emergency programs, therefore, Mr. Chairman, target labor 
productivity in the rural areas. While doing that we need to 
scale up investment in support of agriculture, of course. And, 
finally, Mr. Chairman, U.S. assistance going forward should 
align as much as possible with the comprehensive agriculture 
development program, as a quality framework for policy and 
investment partnership, which is owned and led by the African 
Union and its member country. I thank you.
    [The prepared statement of Mr. Badiane follows:]

    Ousmane Badiane 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Payne. Thank you, very much. Dr. Turshen.

 STATEMENT OF MEREDETH TURSHEN, D. PHIL, PROFESSOR, EDWARD J. 
    BLOUSTEIN SCHOOL OF PLANNING AND PUBLIC POLICY, RUTGERS 
                           UNIVERSITY

    Ms. Turshen. Thank you, Mr. Payne. I am very glad to be 
here from our home State of New Jersey. I want to thank the 
distinguished members of the subcommittee for the honor of this 
opportunity to address global health and gender in Africa. And 
as my colleague has said, I have submitted testimony, which is 
too long to read, and so I am going to read a brief summary.
    The title of these hearings appropriately links economic 
policy to health issues. The prevailing neoliberal economic 
model, known as the Washington Consensus, mandates constraints 
that include ceilings on expenditures on health and education 
and requires governments to cut services in personnel and to 
eliminate food subsidies. Trade liberalization policies have 
hurt weaker domestic industries related to the provision of 
healthcare. And WTO regulation of private property rights in 
medicines has impeded access to affordable drugs. The U.S. 
Government imposes many such conditions through bilateral trade 
and investment agreements. Applying these economic policies 
over the past 20 years, international institutions, 
multinational corporations, and bilateral agreements have 
transformed global healthcare and, I believe, devastated public 
health services by commercializing both supply of and 
expenditure on health services. As a result of these policies, 
Africans face twin crises, increased poverty, and poor 
healthcare delivery systems. U.S. policy should prioritize 
poverty reduction and support for public health systems.
    Global poverty is concentrated in sub-Saharan Africa. As we 
have heard, 40 percent of people live on less than $1 a day and 
real income has declined over the past decades, while, in fact, 
Latin American countries, the Arab States have registered 
modest gains and growth was rapid in East Asia. New poverty 
reduction strategies are needed that stress the right to health 
as a primary objective and these strategies should be based on 
an economic philosophy that promotes government investment in 
public health.
    The United States subscribes to the MDG challenge of 
halving extreme poverty by 2015, but it has no international 
poverty reduction policy. As we have heard, the 2007 U.S. 
Foreign Assistance Framework, which seeks to align all U.S. 
Government foreign assistance into a single cohesive structure, 
lacks a focus on poverty reduction.
    African public health systems are fragile and under-
resourced. Public health expenditure has stagnated in 20 of 25 
countries for which there are data. Eleven sub-Saharan 
countries spend less than $5 per person per year on health and 
another 15 spend less than $10. WHO estimates that the cost of 
a set of social interventions is $34 per person per year, and 
they say that most of that would need to be public spending. At 
the moment, the percentage of what Africans spend out of pocket 
on healthcare is actually greater than what Americans spend out 
of pocket.
    The fragility of African healthcare systems is largely due 
to the failed policies of donor agencies that have undermined 
government health services in two ways: From above, by 
structural adjustment programs that have hollowed out public 
health systems; and from below, by channeling funds to the 
private sector, usually through private voluntary 
organizations. These and other policies accelerate brain drain, 
which siphons health personnel from the government sector.
    I think the United States needs to reexamine the migration 
of African health personnel, recognizing the role that we play 
in this phenomenon. Brain drain takes several forms: The drift 
of trained African personnel from rural to urban areas, from 
primary to tertiary facilities, and from the public to the 
private sector from within their countries. In addition, 
personnel are moving from all over the continent down to South 
Africa, but they are also moving from their countries to 
Europe, Oceania, and North America. Austerity policies that cut 
government jobs push personnel out of public health services 
and foreign aid policies that channel assistance through 
international NGOs attract government personnel to the private 
sector. Ratios of physicians to population fell in four 
countries, remaining the same in another four. They rose in 16, 
but not at the rate of population growth. Proposed legislation, 
such as the Nursing Relief Act of 2009 and the Emergency 
Nursing Supply Relief Act, would aggravate the effects of brain 
drain on fragile African health systems.
    U.S. assistance in the health sector has favored large 
vertical disease-based initiatives. These eclipse more 
traditional conduits of foreign assistance by running around 
the United Nations and WHO. These initiatives contributed to a 
decline in spending on maternal and child health, which is 22 
percent less than it was 10 years ago. I have reported 
elsewhere on what has happened to women's health in sub-Saharan 
Africa since the 1994 conference on international population 
and development, when promises were made to improve sexual and 
reproductive health services, and I would ask that my report be 
entered into the record. Maternal mortality rates have risen or 
stayed the same in 16 of 40 African countries. Two-hundred-and-
sixty-five thousand women in sub-Saharan Africa died during 
pregnancy or childbirth in 2005, approximately one in 22. 
Skilled personnel attended fewer births in 12 of 31 countries 
for which comparative data are available. Family planning is 
the one service that has increased in the years since the ICPD 
conference in Cairo. At the 10th session of the Human Rights 
Council in March 2009, 83 countries signed a statement 
expressing concern at the unacceptably high rates of maternal 
mortality. The United States was not among them nor has it 
ratified CEDAW, the U.N. Convention on the Elimination of all 
Forms of Discrimination Against Women.
    Our record is no better in meeting Millennium Development 
Goals. According to the most recent MDG Africa Steering 
Committee report, the continent as a whole is lagging behind on 
each goal. Progress toward achieving gender equality and 
environmental sustainability remains inadequate. The challenge 
of reaching the eight MDGs in African countries is compounded 
by the grave long-term risk that climate change poses. The 
recent rise in food prices, which is related to climate change, 
volatile hydrocarbon prices, and commodity speculation is 
putting great pressure on African economies and threatens to 
unravel hard won progress in fighting hunger and malnutrition. 
The dangers of the decelerating world economy only add to the 
challenges that African countries face.
    There is widespread agreement in the United States and 
abroad and at this table that the United States does need to 
change the way that it administers health-related assistance. 
It has already been mentioned that according to OECD, the 
United States differs from that of other members of the 
Development Assistance Committee in that each of the 26 
government agencies in the United States conducting aid 
programs has its individual approach to planning, agreeing, and 
implementing the assistance in consultation with partner 
countries. USAID, historically the main agency for implementing 
U.S. programs and health education, humanitarian relief, 
economic development and agriculture, has seen its share of 
foreign aid decline, from over 50 percent in 2002, to under 40 
percent in 2005. One cause of this decline has been the 
increase in foreign assistance disbursements to the Department 
of Defense, up from 5.6 in 2002, to 21.7 percent in 2005. This 
shift from USAID to DoD represents, I believe, an undesirable 
blurring of the boundaries between defense, diplomacy, and 
development. Currently, the State Department, which has limited 
expertise in development, is taking the leading role on AIDS 
interventions.
    There are significant problems in the way the U.S. delivers 
assistance. The bulk of the money is wasted, misdirected, or 
recycled within our own country. Agencies fail to target the 
poorest of the countries. They spend too much on overpriced 
technical assistance for international consultants and they tie 
aid purchases from our own country's firms. Planning, 
implementation, monitoring, and reporting requirements are 
cumbersome, poorly coordinated, making the administrative costs 
excessive, and disbursements are late and partial. These aid 
delivery problems are called collectively the ``phantom aid'' 
phenomenon. They are significant in almost 90 percent of U.S. 
assistance. Changing annual appropriations to 5- or 10-year 
budgets would resolve some of the problems of unpredictability. 
But, untying 97 percent of U.S. bilateral assistance to the 
least developed countries would yield an additional $4.37 
billion, according to one estimate.
    Re-engaging with the multilateral system would promote 
better international coordination. The U.S. share of overseas 
development assistance to multilateral organizations is 
falling, from 26 percent in 2002 to 8 percent in 2005. We need 
to renew our support of U.N. agencies like UNFPA. And here I 
disagree with Congressman Smith. I think we need to decrease 
the undue influence of religious doctrine on sexual and 
reproductive health programs.
    If the U.S. Government is serious in its wish to build 
public health systems in Africa, then scattered health 
initiatives must be consolidated, and I think they should be 
channeled through WHO. WHO has the expertise to improve African 
health systems, whereas I am afraid the United States has no 
viable model to offer. The funds in PEPFAR and the President's 
Malaria Initiative should be turned over to WHO. I believe 
UNAIDS should be disbanded. I do not think I am alone in this, 
and WHO should once again administer AIDS programs, as well as 
the Global Fund to Fight AIDS, Tuberculosis, and Malaria, and 
the Roll Back Malaria Campaign.
    The delivery of aid through private voluntary organizations 
should be curtailed in favor of multilateral channels. This 
would not only assist African governments in planning their 
healthcare and reducing the administrative workload, but it 
would also help the private voluntary organizations wean 
themselves from dependency on government support. Being more 
independent, the PVOs could take a more critical stance as 
advocates for their constituents. African people cannot hold 
international NGOs accountable for failures of service 
delivery, but they can make their government answerable.
    Under the current international intellectual property 
rights regime, pharmaceutical oligopolies hinder the supply of 
affordable medicines to the continent. Instead of putting up 
barriers, the United States should encourage African countries 
to use the safeguards provided in the 2001 Doha Declaration on 
TRIPS, which would allow easier access to generic medicines. 
With annual budgets of $1-$10 per person per year, Africans 
cannot afford to buy high-priced drugs and vaccines. The World 
Bank has a solution for this dilemma, a public fund to purchase 
vaccines. It suggests that international development banks 
issue contingent loans for vaccine purchases. This does solve 
the dilemma for the pharmaceutical industry because it 
guarantees them sales. But instead of working toward canceling 
the debt of African countries, this plan would increase African 
indebtedness and repayment of debt is what has forced so many 
countries to spend less on health and education.
    The first MDG deadline to achieve gender parity in primary 
and secondary education by 2005 was not met. This failure is 
particularly disheartening because the deadline was both 
realistic and achievable. Not educating girls has special 
significance in public health, both because of the high 
correlation of educated mothers with healthier children and a 
greater provision and consumption of health services by women. 
There are more than five nurses and midwives to every doctor in 
the African region, a female-to-male ratio of roughly five to 
one. Yet curricula often exclude girls from mathematics, 
science, and technology, which are precisely the prerequisites 
for careers in medicine, nursing, and public health.
    Poverty creates competitors for girls' time in school--the 
pull of work, paid and unpaid, and the push to early marriage. 
Twenty-six percent of African children under the age 14 are in 
the labor force. I actually think that is a terrible 
underestimate. School fees, which is the same misguided World 
Bank policy that demanded user fees in health facilities, keep 
many poor children out of school.
    So the solution once again is poverty reduction, as Dr. 
Badiane has emphasized. But, I hope that the economic crisis is 
an opportunity to reform the flawed policies of the Washington 
Consensus. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Turshen 
follows:]Meredeth Turshen 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Payne. Thank you, very much. Mr. O'Keefe.

 STATEMENT OF MR. BILL O'KEEFE, SENIOR DIRECTOR OF POLICY AND 
               ADVOCACY, CATHOLIC RELIEF SERVICES

    Mr. O'Keefe. Good afternoon, Chairman Payne, and let me 
just thank you for your courage in going to Somalia and the 
commitment that that represents for the people of Africa. I, 
also, want to thank ranking member Smith for his tireless 
advocacy on behalf of human rights for the people of Africa. I 
appreciate the interest of all the members of the subcommittee. 
Thank you for allowing Catholic Relief Services to share its 
views on foreign assistance priorities for Africa and 
especially around reform.
    Foreign aid does need to be reformed to meet the 21st 
century challenges in Africa. Paul Collier documented in the 
Bottom Billion many of the poorest people in Africa live in 
countries stuck in development limbo. As Congresswoman Watson, 
I think, summarized well, major global trends, such as climate 
change and the global financial crisis, threaten to keep these 
nations permanently locked in this state of poverty. Again and 
again our church partners in Africa highlight the growing 
problem of underemployed and unemployed poorly educated urban 
youth in expanding cities. Finally, the complicated series of 
conflict systems on the continent is the Gordian knot that ties 
up African development in many places.
    Responding effectively to these challenges would benefit 
from all the lessons learned from over 60 years of experience 
at CRS. Our central conclusion from that experience is this: 
Effective responses require local participation and ownership 
in their design and implementation. Whether strengthening 
agricultural supply chains, improving access to quality 
education for girls, or caring for people living with HIV, 
people must be the central participants in their own 
development. In Africa, faith-based institutions, like Catholic 
Relief Services, are well positioned to ensure this local 
participation and ownership. This is because of our extensive 
grassroots network and the resulting access, trust, knowledge 
of local cultures and needs, and respect for local traditions 
and religious values.
    Linking our on the ground assets to this approach of U.S. 
foreign assistance, however, is not always easy and has not 
always been easy. U.S. foreign assistance is stuck in its own 
limbo. Only 25-34 percent of foreign assistance is directed to 
the poorest people in the poorest countries. As Dr. Turshen has 
mentioned, poverty reduction is certainly the focus that we 
would like to see more of. In response to complex and changing 
conditions and the rich diversity of peoples and cultures on 
the ground in Africa, funding has been stove piped, inflexible, 
short-term, and too often prescribed from Washington.
    So how can this committee reform U.S. foreign assistance, 
so that the critical elements of participation and ownership 
filter all the way down to the rural Kenyan farmer or to the 
woman trying to feed and educate her children? There are three 
principles from our experience that apply to the range of 
legislative initiatives facing this committee from general 
foreign assistance reform legislation, to food security reform, 
to microenterprise reauthorization.
    The first principle is ``do no harm.'' In this case, I mean 
preserve the role of faith-based organizations that fill large 
niches that few others can. Conscience clauses and other 
provisions that mitigate against discrimination in funding and 
allow faith-based organizations to contribute their unique 
strengths are essential. In no area is this more true than in 
PEPFAR. Faith-based institutions often provide the only quality 
healthcare, education, agricultural assistance, and other 
critical assistance in whole regions of rural Africa. Without 
their presence, the most vulnerable would simply go without. 
CRS's care treatment and prevention projects are carried out in 
partnership with Catholic church agencies and other local 
organizations and last year directly helped more than 3.5 
million people affected by the disease. Under PEPFAR II, we are 
already building on the rural healthcare system strengthening 
begun under PEPFAR I. Where aid isn't broken, don't fix it.
    The second principle is ``throw out the cookie cutter.'' 
People are not single sector beings. And in Africa, the 
incredible diversity across every variable means participatory 
projects owned locally will vary immensely. Faith-based groups, 
local NGOs and PVOs need to be able to address hunger as we do 
in Ethiopia, for example, where we combine Title II and other 
resources to assist women farmers to improve their environment, 
increase their yields, address their nutrition constraints, and 
engage in savings led microenterprise activities for income. 
This holistic approach suggests a wider need to coordinate 
development programs appropriately. Staff and country need the 
flexibility to propose a responsive country level development 
strategy. Over determining sector allocations from Washington 
does not promote real development.
    The third principle is ``maximize the comparative 
advantages of the various actors.'' Pay attention to the 
details of the funding mechanisms, so that faith-based 
organizations, American PVOs, and local civil society groups 
can access funding in ways that allow them to support the 
projects that arise from the participation and ownership we 
work so hard to foster. As Mr. Gast mentioned, USAID has been 
so understaffed that the remaining personnel do not have the 
time and support to manage and monitor the kinds of 
participatory, locally-owned initiatives that work. To meet 
their responsibilities, the remaining staff rely on larger and 
larger contract mechanisms with tighter and tighter 
requirements and shorter and shorter time frames. The result, 
CRS, local faith-based groups, local NGOs and PVOs specializing 
in the critical skills and relationships for development 
effectiveness cannot participate. CRS has found that some of 
the new foundation donors have developed funding mechanisms 
that are both predictable, flexible, and yet rigorous. We have 
been able to develop agricultural research initiatives led by 
women farmers, for example, because we have had the flexibility 
and the opportunity to explore over time with those communities 
the kinds of interventions that work. Assistance reform must 
allow us to innovate.
    In conclusion, this bottom up approach, which focuses on 
the poorest of the poor, is also exactly what the American 
people want and what they all believe our Government should be 
doing. It is what we can all be proud of. I would like to thank 
you for your attention and I would be very glad to answer any 
questions that you might have.
    [The prepared statement of Mr. O'Keefe 
follows:]Bill O'Keefe 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Payne. Let me thank all of you for your testimony. And 
as we are looking to see how foreign aid should be reformed, I 
listened to your testimony. I know Dr. Turshen, you indicated 
that you feel that we should do away with the individual 
funding mechanisms and that it should all go to WHO. Why do you 
believe that this would be the best way to go and maybe we 
might have others comment?
    Ms. Turshen. Thank you, Mr. Chairman. In all fairness, I 
should say that I am a past staff member of the World Health 
Organization, where I worked for a number of years in Geneva, 
precisely in maternal and child health and family health unit. 
It seems to me that WHO is the organization with the health 
expertise. The United States now ranks 29th in infant mortality 
rates behind almost every industrialized nation; we saw a rise 
of up to 56,000 new cases of AIDS last year and cannot control 
the epidemic in our own country. We have enormous problems even 
having the expertise to count cases of malaria and to assess 
what sort of health benefits would come from malaria bed nets, 
apparently the new estimates of lower rates of malaria arise 
from statistical errors in accounting, rather than in any 
program that we have put forward, including bed nets. It, 
therefore, seems to me that the World Health Organization is 
the organization that has the expertise. And it is a collective 
organization, meaning that it collects its expertise from many 
countries around the world, not from any single model of how to 
do healthcare. It is an organization, that was preceded its 
present form by the Pan American Sanity Bureau, which goes back 
many, many years. And so the depth of its accumulated 
experience is very great.
    WHO has been starved of budget. There has been a move in 
Congress since 1980 to deprive WHO of any additional funds. All 
additional money has come from extra budgetary sources, which 
in the business we refer to as the ``flavor of the day'' 
approach to giving money. We think that if the base of WHO were 
once again allowed to expand, it would be the proper 
organization to oversee these programs.
    It seems to me that while organizations like CRS have 
undoubtedly filled gaps, governments cannot plan public health 
services on that basis, because small private voluntary 
organizations do not collect the kind of data that governments 
need in order to plan health services. They do not get the kind 
of feedback from those organizations, which would allow them to 
spread services out evenly, to distribute healthcare across the 
country. My experience in Tanzania was that organizations tend 
to duplicate one another's efforts in the most lovely parts of 
the country where the climate is best and where the resources 
are best and travel is easiest, and they do not spread it out 
to the rural poor and the neediest.
    So for all of these reasons, I would suggest that if we are 
going to put money into strengthening public health services 
and basic health services, the way to do it is through the 
World Health Organization. Thank you.
    Mr. Payne. Thank you, very much. There are 26 different 
agencies or departments according to a U.S. Government report 
to the OECD's Development Assistance Committee that are 
implementators of official development assistance--certainly 
fragment. Perhaps, it is not practical because of the fact that 
they are, in many instances, individual countries able to raise 
funds or support by virtue of their signature or their appeal 
to their own constituents of that country, that is what we are 
doing. I think it might be great if we did have this real world 
bank and just drop the money in there and let WHO run with it. 
But, I am not so sure that we could continue to sustain their 
national interest in what they feel they are doing to eradicate 
a particular thing. I wonder if any of the other panelists 
would like to comment on that. Yes, Dr. Badiane, and then we 
will hear from Dr. Radelet.
    Mr. Badiane. Just very quickly. Building on my experience 
at the World Bank, I think that it is very healthy to have a 
diversity of actors, at least at the bilateral and 
multilateral. But, I would agree perhaps with Dr. Turshen that 
on the multilateral side, on the U.N. side and things like 
that, one might want to consider that a little bit. But, doing 
away with the bilateral part of the agenda, I think we will 
take an opportunity of individual governments in Africa to 
engage bilaterally and have a diversity of choices in the way 
they would like to move forward.
    I think that merging everything into one individual 
organization would overwhelm the resources that any given 
organization could muster. But, at least on the global side of 
the equation, one might want to think about consideration, but 
there is room, large room actually for bilateral action there.
    Mr. Payne. Yes?
    Mr. O'Keefe. Thank you, Mr. Chairman. And if I could just 
add that from the starting point where we are, where faith-
based providers and other private healthcare systems provide 
such a large percentage of the actual healthcare, particularly 
in the rural areas in Africa, I think while strengthening the 
government's capacity is a very good idea. I am no expert on 
whether the WHO is the best way to do that, but strengthening 
the private healthcare system is needed, if we are going to 
make sure that the poorest of the poor get coverage. That is 
who cares for the poorest of the poor in our country is our 
private healthcare system and our faith-based healthcare 
system. There is no reason to think that every government is 
going to pick all of that up. So, I agree that a diversity of 
actors is a wise strategy and in Africa right now, that 
includes the faith-based and private structures, as well. They 
can be strengthened. We are trying to strengthen them. Other 
groups are trying to strengthen them. The public healthcare 
system needs to be strengthened and there is a role for the 
United States in both.
    Mr. Payne. Okay. Thank you. Earlier, I indicated to our 
first panelist that there appears to be, someone I think even 
mentioned U.S. assistance going through the military increased 
from 5 percent to 21 percent, more or less. Would you panelists 
like to comment on the increased role of the military in U.S. 
assistance and programming? Yes, Mr. O'Keefe?
    Mr. O'Keefe. Thank you, again, Chairman Payne. One of the 
points that I tried to lay out in my testimony is the critical 
development element of participation and ownership. And from 
our experience watching the military do its well-motivated 
work, these are committed people trying to do the right thing 
in Afghanistan and in Ethiopia and in the Transalian 
initiative. We observed that they are not well placed, well 
trained, in order to negotiate that kind of participation and 
ownership. They go for a short period of time. They come in, 
they come out. They have a short-term security objective and 
those short-term objectives are not consistent with long-term 
development. And they are not consistent with building the 
community engagement that is going to lead to the ownership 
that leads to success.
    I will tell you just a quick story. We had in Ethiopia, two 
young Marines came into our office in Addis Ababa to consult 
about our advice on the country. Our staff was somewhat 
confused and asked what they were doing in the country and they 
were told this is like Peace Corps with guns. There is no such 
thing as Peace Corps with guns. Development needs to be done by 
civilian actors in a civilian context. Thank you.
    Mr. Payne. Yes?
    Mr. Radelet. Mr. Chairman, I think the militarization of 
our foreign assistance is not only a concern in of itself, but 
it is a symptom of a deeper problem. The roots of this actually 
have to do with the weakening of USAID over the last 15-20 
years, from one of the premium development agencies in the 
world, to what is now a shell of itself and really just a 
contracting agency. And as needs changed earlier this decade, 
particularly after the attacks of September 11, there was a 
need to ramp up and there wasn't the confidence in USAID, I 
think. There weren't the resources, both financial and 
personnel, and there wasn't the flexibility for them to move 
quickly into some new situations. And the Department of Defense 
filled the void. They had the resources, both the personnel and 
the money, and they have the flexibility in their mandate to 
move quickly.
    So, I think addressing this problem in the right way is to 
go back to fundamentally strengthening USAID, in terms of 
giving it the type of senior leadership that it needs with 
world development expertise, giving development a voice at the 
NSC table, giving USAID the legislation it needs, and the 
ability to hire people with the professional expertise, the 
financial resources to work with them, and the flexibility to 
immediately address challenges on the ground. Too much of our 
programs are determined here in Washington, so when needs on 
the ground become evident, USAID does not always have the 
flexibility to move where the military does have a little bit 
more flexibility in that way. So, I think the real solution to 
this is to look back at USAID and think about ways to really 
build it up and re-strengthen it into a premier development 
agency.
    Mr. Payne. Yes?
    Ms. Turshen. I would just like to add to that, thinking 
about the emphasis on poverty reduction and the need for 
development, which I think was very well voiced by Dr. Badiane 
in his description of both what has been accomplished and what 
are the needs to be done in Africa and what other purposes of 
the military. It seems to me that there is a contradiction 
here. The military, unfortunately, in achieving its objectives, 
has been really the source of great deal of destruction, and 
the idea of teaching the military to do nation building has 
been an arduous process because that is not what their primary 
focus is. It is not what they are really gifted at doing. Yet, 
it seems to me that USAID has had this kind of expertise and 
could once again build it up. And so rather than trying to 
transform DoD into a nation-building organization that gives 
development assistance, would it not make more sense to go back 
to USAID where we could focus on both development and poverty 
reduction? Thank you.
    Mr. Payne. Thank you, very much. Unfortunately, in the past 
decade anyway, appropriations for programs tend to flow more 
easily through the DoD. I wish that other aspects of the 
Federal Government could just get what they ask for, almost 
whether you need it or not. But, that is really not the case, 
as we all know.
    In regard to agriculture, we talked about finally, I think, 
USAID is starting to think in terms of agriculture. But, in 
your opinion, do you feel that we can really increase 
agriculture to where it perhaps ought to be and even in Africa, 
which I believe should be a commodities exporting continent of 
food stuff, et cetera, without a change in the U.S. farm 
subsidies program? Do you see it being somewhat futile or 
difficult with our agricultural policies, which I think tend to 
mitigate against countries trying to develop agriculture? Yes?
    Mr. O'Keefe. Thank you. We certainly agree that the United 
States agricultural price support, at least to the extent that 
it serves as a disincentive in cases of African agriculture, is 
problematic. But, our analysis on the ground is that so much 
can be done within each locale, within each country and 
regionally, in order to stimulate market activity. Thus, 
enterprise and market development has been a huge focus of ours 
over the last couple of years. On Capitol Hill earlier this 
week, we had a seminar of our agricultural people from all over 
the world, where they discussed in great depth how we are able 
to bring localized market development in many situations in 
Africa. So, I do not think it is futile. A lot can be done that 
would stimulate local, national, and then regional markets for 
the benefit of African agriculture.
    Mr. Payne. Thank you. Dr. Badiane?
    Mr. Badiane. Thank you, Mr. Chairman. In answering that 
question, the first thing that comes to mind is to recognize 
that we are in a globalized world market. We are not the kind 
of--the domestic market in Africa has been separate from the 
regional markets in Africa, has been separate from the rest of 
the world. So, it is one continuum. And, therefore, whatever 
touches that global market also touches African agriculture.
    I, also, would like to highlight the fact that U.S. 
policies in agriculture would not be looked at just from the 
U.S. point of view. I think global policies are all 
interlinked. What happens in the U.S. is relevant to what 
happens in the other OECD countries, is relevant to what 
happens in the emerging economies. And that is where the 
problem comes from, I think. If policies in the United States 
are not conducive to less protectionistic agriculture policies 
worldwide, the implication is that faster growing emerging 
economies are markets that African countries cannot access to 
anymore. It is just not the U.S. market that they cannot, but 
also faster growing emerging markets. They did not excuse to 
build tariff walls and protectionist walls. So, when one looks 
at the U.S. policy, one ought to have a global understanding of 
that and look at the ramifications beyond the U.S. borders.
    I do believe indeed that unless we have much more trade 
friendly and developing country friendly U.S. policy, it is 
going to be very difficult to reap the opportunities for growth 
and sustained economic growth in Africa. What is being invested 
on the system side probably is going to be curtailed on the 
environment, in terms of trading environment side of the 
equation. African economies deserve the opportunity to compete 
globally and I think global policies are not affording them 
that opportunity.
    And, Mr. Chairman, if I also may just share you with what 
people like me think about that. We ask ourselves sometimes, 
Does the U.S. lack the resources, the expertise, and the 
legislates? To have policies that address the legitimate social 
concerns in the United States rural economy and the rural part 
of the country, would that have a detrimental effect on the 
global trading environment on African countries? And we think 
that it is an issue of looking for the solutions, the 
innovative sources, expertise on legislates capacity in this 
country, they are the best policy indicator for the social 
needs of the rural population without causing the damage that 
either directly or indirectly is being imposed upon African 
countries, just due to the fact that the global trading 
environment is putting this our way because of that. Thank you, 
Mr. Chairman.
    Mr. Radelet. We do, Mr. Chairman. We do extensive damage 
through our farm subsidy programs against many people and 
families in Africa. We undermine incentives for production, we 
undermine people's incomes, and we contribute to poverty. And 
what we do is counter to American principles of working on a 
level playing field, of providing opportunities to people, and 
giving them the means to help themselves. We preach that we 
want people to help themselves and pull themselves out of 
poverty and then we kick the ladder right out from under their 
feet and do not let them do it. And it runs counter to many of 
the other efforts we make through our foreign assistance 
programs. That does not mean we cannot do some good even in the 
presence of those things and I realize the obstacles are 
inherent in changing those policies, but they do a lot of 
damage.
    In terms of other steps that can be taken to strengthen 
agricultural productivity in Africa, we underutilize one of our 
other great assets, which is our technological know-how and our 
potential to help develop new technologies that can help 
agricultural productivity in Africa. We have some of the best 
agricultural research universities in the world and they helped 
along with research centers around the world in the green 
revolution 40 years ago and we need to redouble those kinds of 
efforts toward improved technologies for Africa.
    And then, finally, I will just mention the role of the MCC 
in helping support agriculture through building roads and 
markets, which is what countries have been asking for. The MCC 
does not push this down people's throats. This is what they ask 
for and people are smart. If you ask most people out in rural 
areas the one thing they want, they want roads, because it will 
improve their agricultural productivity, they are able to sell 
more things, they are able to get girls to school, they are 
able to access health clinics to women do not die in 
childbirth, they are able to do a lot of things. And so, the 
things that the MCC are beginning to do can help in this fight 
against rural poverty and agricultural development, as well. 
Thank you.
    Mr. Payne. Yes, Dr. Turshen?
    Ms. Turshen. If I could just add something with a slightly 
different perspective, which is that of healthcare and health 
problems and to say there has now been a lot of questioning of 
the efficacy of the green revolution, especially in India, 
where it is discovered that the thirsty and oil-consuming 
approach to agriculture is both poisoning the land and perhaps 
poisoning people. There has been a suggestion that we need a 
green revolution in Africa whereas there are many people in 
Africa who are questioning whether that is the best approach, 
whether, in fact, it will bring better health. So, when it 
comes to a question of transferring United States expertise, 
one has to ask whether, in fact, there is enough assistance to 
African universities to develop their own expertise in 
agriculture and agricultural innovation based on a much closer 
knowledge of their land and soil and water systems than we 
could have at a distance; and whether agriculture for better 
health rather than agriculture for export of non-nutritive 
commodities is what African needs in the short-term; and 
whether in the long-term, by building better food security 
within African nations, we might, in fact, achieve better 
health. Thank you.
    Mr. Payne. Thank you. Yes?
    Mr. Badiane. Just on the connection between education, 
health and agriculture and also on the global relation subject, 
when we talk about the global relation, we might want to look 
at difference between Africa today and Asia of the fifties and 
sixties. The biggest concern that Asian agriculture faced then 
was a technological problem. If you knew how to produce, then 
you solved the problem 60, 70, 80 percent.
    That is not the reality in a globalized economy. It is 
technological. It is markets. It is infrastructural. It is the 
value chain development. So it is much more complex than just 
focusing on the technology side.
    I think though there are areas we use and certainly can 
make a great contribution. Let me share with you a number here. 
The projections that urban and regional markets in Africa--the 
demand in those markets is going to grow from $50 billion right 
now to about $150 billion in about 25 years from now.
    If you do not have the value chains, the infrastructure, 
the logistics, the modernization of the trading systems, 
African farmers and African agribusiness people are not going 
to be benefitting from that.
    So what I think is important is to get the investment going 
on infrastructure, as he said, and agribusiness development; so 
that the $100-plus billion in demand can also generate income 
and create wealth within Africa.
    Regarding health and education, as I was saying in my 
statement, and I give a little bit more for that in my written 
testimony, we need a common denominator between the three 
things: Growth, public reduction on one side; health and 
education and safety nets on the other.
    The common denominator has to be the contribution to labor 
productivity of the poor people; and it is possible to achieve 
that. Living health, I think that not all health programs are 
created equal. Some health services contribute to labor 
productivity more than others. But it can be dealing with 
diseases that are also very important.
    I would imagine--and I am not a health specialist--but I 
could imagine that if you had a health program that targeted 
the seasonal diseases that could curtail labor availability 
during the peak labor season in rural areas, you will raise 
productivity of the rural laborers. You will achieve your 
health goals, and you will make people in their areas much more 
productive.
    Similarly in education, if you would for once think beyond 
primary tests and secondary; and think about vocational 
training, and think about work force development for 
agribusiness, that is all education, the image and impact on 
productivity will be far greater than the longer term impact of 
conventional and traditional education.
    So I think that is where we have to be a little bit more 
innovative and create bridges between growth, productivity 
enhancements, and social services investment. That will allow 
us to get the kind of general evolution we want, which is 
diverse enough, good for productivity, strong for market excess 
and competitiveness; but also good for health and education at 
the same time. Thank you, Mr. Chairman.
    Mr. Payne. Thank you very much. The question of access to 
markets, by road and transportation, you know, it is kind of 
difficult to have roads built. You know, it is not what someone 
would like to save a child with some medication. It is not 
glamorous, it seems, about building roads.
    And we have actually attempted to have the MCC look at 
regional projects that would just fall out of the realm of a 
country's project; but as you know, there is no way you can get 
to Goma other than flying. There is just no road through the 
Congo. Roads are really a hurdle, if we really want to see 
agriculture develop like it has the possibility.
    Secondly though, and maybe Dr. Badiane might handle this 
one, since some of our brothers--Nigeria, for example, are 
countries that probably could be number one in agriculture. 
However, agriculture is not a main priority in countries like 
Nigeria. I guess oil was discovered, and everything sort of 
focused on that.
    Do you have any suggestions on how we can try to have our 
leaders in African countries deal with agriculture in a big 
way? Some countries could have two crops in a year or even 
perhaps three you could squeeze in. We are here in the U.S. We 
do one crop a year, and make it successful.
    Any suggestions you have for trying to impress upon maybe 
the AU, just as a subject about the focus or maybe to re-focus 
on agriculture. One time, Sudan was the bread basket of Africa. 
They almost produced enough food for the whole continent. 
Today, they are the biggest recipients of food aid. So maybe 
you can elaborate on that for a minute.
    Mr. Badiane. Just actually the other very exciting 
development in Africa which, Chris, what I am hopeful 
personally because I am very closely involved in that, in the 
effort to develop what they call the Comprehensive Africa 
Agriculture Development Program, under the auspices of the 
Africa union, and coordinated by the NAPA secretary in 
Johannesburg.
    By the way, USA is playing a great role in there, as a 
partner, and also as an advocate for the leadership on the 
African side on the agenda among the development community.
    That program CAADP, the acronym, is actually an African 
union program. What they are trying to do in that program, and 
I highlighted it a little bit in my written testimony, is to do 
two things: Help African countries raise the profile of 
agriculture, by helping premises of agriculture get much better 
programs, better budget planning execution and reporting.
    During my 10 years at the World Bank, I had noticed 
actually that a big program Ministers of Agriculture had, 
Ministers of Agriculture had to execute the budget that was 
being allocated to them. It was not enough. But if they got 60 
or 70 percent, that was great.
    I think that this is not a reflection of how poorly 
equipped the Ministers of Agriculture are; but how complex 
agriculture is: Planning it, designing it, and implementing it.
    It is not a public sector program like education and health 
where you can program and budget and execute. You depend on the 
private sector; and that is very difficult. You depend on the 
farmers, and that is also very difficult.
    So what they are trying to do is, it is, therefore, to help 
countries move toward evidence and outcome based planning and 
implementation, so they can track and document and report on 
it, and hopefully implement better and, therefore, can consume 
more sources.
    Also, by implementing better, they will get better results. 
This is actually coming from way up the Africa union. It is 
being coordinated by the regular economic communities, like 
ECOWAS and COMESA; and the U.S. had provided a lot of resources 
to support the implementation process and the progress that has 
been made so far.
    There are now about 20 countries, Mr. Chairman, who are 
working systematically, trying to achieve the objectives that 
the African union has laid out in that program which are: One, 
raising productivity to achieve a 6-percent growth rate in 
agriculture, and allocating at least 10 percent of the budget 
to the agriculture sector.
    My institution is looking for that, which is what got me to 
get out of the World Bank, to lead this work with them; and 
thirdly, they put putting together what they call inclusive 
platforms for dialogue and partnership, giving a voice in the 
farmer's organization.
    So agriculture is coming back. I do hope it is going to 
stay that way for the near future. If the 20 countries that are 
involved in that are successful in turning things around, I 
think it is going to catch fire, and you will see good progress 
around agriculture on the continent.
    I am hopeful. But there are a lot of risks out there. I 
hope they are going to be handled well, and categories are 
going to become a success story; thank you.
    Mr. Payne. Thank you very much. I did have an opportunity, 
right after the new President in Ottawa was elected in Nigeria. 
I suggested that agriculture would be something that they look 
at on my recent visit to Nigeria.
    I thought that if the world economy was continuing to go 
like it was a couple of years ago, food commodities with a 
growing income, places like China for example, would be 
starting to develop housing. In a country where the income 
increases, people want to have better housing or a little 
larger housing.
    As China increases their investments, they may start to use 
land, previously used for agriculture, for industrial plants 
and housing. A place like Africa, however, has plenty of land 
and could really take advantage of that land for economic 
growth. Similar activities can be occurring in places like Asia 
and in other parts of South America.
    But because we have a downturn, so many of the things that 
were applicable a couple of years ago may not be, temporarily. 
But I think that is the kind of global thinking that we need to 
have.
    Dr. Radelet, you mentioned about democracy, and although 
this is basically, you know, how should we reform foreign 
assistance, and part of our foreign assistance does deal, as 
you know, with democracy and supporting democratic 
institutions. For example, we supported the election in the 
Democratic Republic of Congo, the run-off elections, and the 
counting, and the delivery of ballots, and printing. The cost 
was close to $1 billion that the U.S. supported for that 
election.
    I just wondered if you had thought, in your opinion, how 
elections in Africa have been going. As you know, we have had a 
number of elections, at least since the fall of the Iron 
Curtain.
    We had a good wave going at one point; and then we have had 
Zimbabwe and Nigeria, Kenya--less positive elections. Although 
in Ghana, we saw the President, whose party was defeated, 
invite the President-elect to the Presidential palace and show 
him around, which is really the way you like to see it.
    In your opinion, how have elections been in Africa in 
general, if you could sort of characterize them?
    Mr. Radelet. Thank you; I think one of the most striking 
changes in the world in the last 15-20 years that often goes 
unnoticed is the shift toward democracy in sub-Saharan Africa 
and in other low income regions around the world.
    Twenty years ago, the most prevalent idea was that low 
income countries could not support democracy at all. The only 
significant democracy among low income countries was India, and 
the view was that it was not doing all that well, thank you 
very much. There were a few others. But the idea, of course, 
was that benign dictatorships were the way to go.
    In the last 15 years in Africa, we have seen the shift from 
three democracies: Botswana, Cape Verde, and Mauritius in 1989, 
according to international indicators, to over 20 today. As far 
as I am aware, never in the history of the world have we had so 
many low income countries become democracies in such a short 
period of time.
    You are correct that there have been some cases of back-
sliding; some countries that showed promise. Zimbabwe never 
actually made the ranks, according to these indicators, by 
Freedom House and by the University of Maryland, as a 
democracy. It showed promise that way. It has slid back, of 
course, with Kenya and others.
    But we have had the great successes of Ghana, which hardly 
made news, when there was a very successful election; and an 
opposition candidate won; and there was a peaceful transfer of 
power. It was not in the newspapers, and it was a great thing 
to celebrate.
    There was great nervousness when the President of Zambia 
passed away, about what would happen there, and there has been 
a remarkable transition there. But places from Mozambique, 
Lesotho, Namibia, Tanzania, Ghana, Benin, Mali and Senegal, 
there has been tremendous progress.
    So I am quite hopeful. It is beyond elections. You 
mentioned elections; and elections are, of course, a step. But 
an election is not democracy. It is deeper than that. You need 
accountability to the citizens. You need transparency for 
government operations. You need government officials that are 
honest and are adhering to the rule of law.
    And those are harder. Elections are hard. But in some ways, 
they are the easiest part. So some of the things we can do are 
continuing to support non-government organizations that are 
working toward transparency and accountability; toward a free 
press and an active voice, an active debate.
    Sometimes the press seems a little too free and a little 
out of hand. But that is the first step towards, I think, 
strong institutions.
    As you know, I work closely with the Government of Liberia; 
and you know, the change just in the last few years is just 
hard to describe. It is still very fragile. The future is, of 
course, unknown. But there have been remarkable strides from 
the first kind of authoritarian government to a very promising 
democracy, in its deepest sense, in just a few years.
    So I am optimistic. I think most of the effort, of course, 
must come from Africans themselves; African governments, 
African citizens and other institutions. We can play a 
supporting role. We cannot lead the charge, but we can help 
support this move, and hopefully see it continue to grow and 
evolve in the years to come.
    Mr. Payne. On that note, I know that recently in the last 
day or two, it was announced by President Johnson Sirleaf about 
the fact that Liberia paid off $1.2 billion of foreign debt.
    I know you have been very involved in there. As a matter of 
fact, they said 97 percent I think--sort of--I do not know, it 
sounded tricky to me. [Laughter.]
    No, I am sure that there was really a lot that went into 
it. I just wonder if you might touch on that, because it was 
quite a great achievement, and congratulations on your 
assistance to Liberia.
    Mr. Radelet. When the new government was inaugurated 3 
years ago, they inherited a debt of $4.9 billion, which with 
the economy collapsing during the war, translated into a debt 
export ratio of 2,300 percent; by far, the highest in the 
world, by far, higher than any other HIPC country. In fact, it 
was seven times the HIPC average.
    The HIPC program, as you may know, aims for a debt export 
ratio of 150 percent. Liberia's ratio was 15 times higher than 
the target; so by far, the most heavily indebted country in the 
world.
    About a quarter of that debt was owed to commercial 
creditors; originally banks. A lot of that had been traded to 
investment funds, hedge funds, distressed debt funds, and a 
variety of other actors over the years, at ever steeper 
discount.
    It took about 2 years to track all these people down, and 
find out who owed the pieces of debt. There were legal cases 
all around the world.
    But when the government got everybody into the room and sat 
down with them, they recognized that the government had very, 
very limited resources; made the offer of three cents on the 
dollar, of today's legal claim. So it was three cents on the 
dollar, including penalty and accumulated interested.
    The government recognized that that was a real liability. 
After tough negotiations, the creditors realized that that was 
the best deal they were going to get. Their only choice was to 
go to court, and they did not want to go to court against Ellen 
Johnson Sirleaf, frankly; many of them.
    So several donors put together the $38 million, which was 
necessary to buy back $1.2 billion worth of debt. The World 
Bank put in half the money. The United States put in $5 
million. The Governments of Germany, Norway, and the United 
Kingdom each also put in $5 million to give a $38-million fund, 
and that fund was used to buy back the debt.
    The deal was closed last week; and has been completely 
finalized. So the debt has been extinguished, and it was done 
at no cost to the people of Liberia.
    So all of those legal cases are now gone, with the 
exception of two small creditors that collectively held about 
2.5 percent of the debt; $20 million out of the $1.2 billion 
that did not participate. The government is continuing to 
negotiate with commercial creditors. But with those two small 
exceptions, the rest of the debt has been completely, legally 
extinguished at this point.
    So that takes care of about a quarter of the debt, along 
with some other debt forgiveness. The debt has been reduced 
from $4.9 billion to $1.7 billion; and when Liberia reaches the 
HIPC completion point next year, most of the rest of that will 
be extinguished; not quite all, but most of it; thank you.
    Mr. Payne. Well, that is a good story. We hear so many; 
and, we have heard some horror stories with the vulture funds 
that have come in and have actually caused the reverse, 
granting awards that unfortunately are very damaging to 
countries. We really appreciate that success. Yes, Mr. O'Keefe?
    Mr. O'Keefe. Thank you; I just wanted to follow-up on Dr. 
Radelet's point about openness and accountability and 
transparency as it relates to elections.
    The list of successes, the notable absences, are the 
countries that have large oil resources. There is a reason for 
that, as the committee and the chairman are familiar with--the 
specific and particular economic and political problems that an 
excessive over-reliance on extractive industries, particular 
oil, creates.
    So as the reform effort and looking at assistance to Africa 
continues, attention to transparency and openness and 
requirements that will move countries and support them toward 
more transparency and openness, and companies as well, of 
course, would be very helpful in moving the democratization 
process forward.
    So I just wanted to put that one point on, Dr. Radelet's 
excellent summary of the Democratic status and progress going 
on; thank you.
    Mr. Payne. Thank you. Dr. Badiane, also, there is a 
substantive body of thought, and I am sure that the panel would 
agree, that progress in the social sectors has a substantial 
impact on growth and productivity.
    Your testimony acknowledges this by suggesting that we 
should better focus our assistance on health, education, and 
social safety nets in order to improve growth and productivity 
of labor. I would just wonder if you would expand on that a 
little bit more.
    Mr. Badiane. Thank you, Mr. Chairman, for the opportunity 
to do that. I think that when we look at health and education, 
we look at them as a monolithic service. You have better 
health. You are more productive, which is correct.
    But if you are a country with limited time, because you 
have a large share of your population that lives in poverty, 
and you have extreme constraints as to the resources 
availability, I think that what you ought to do is to maximize 
the return from every dollar incentive invested in terms of 
growth.
    So we should not be just satisfied by knowing that health 
contributes to growth or education does contribute to growth. 
What we should be doing basically, just to do what we did for 
infrastructure. Nobody thinks about infrastructure as just on 
monolithic service. But we distinguish between highways, tracks 
and trails, and bridges and secondary roads; and they all have 
different implications for local development.
    I do believe again, because I have been an expert, that 
education services that target primarily vocational training in 
the rural areas and work force development in the agribusiness 
sector, and health services that target diseases that are 
seasonal but chronically seasonal and, therefore, really are 
not seasonal any more, which have a huge impact on the level of 
labor availability to raise productivity--those diseases and 
services targeting them ought to be, I think, a priority in any 
health program.
    Here is the example we use to illustrate it. You have an 
economy and a measure of health--and I have health experts here 
that can correct me--has $100 to invest in health. Investing 
$100 every year in health, that focuses on hospitals and 
clinics and management and the like of 10 years, or taking 
those $100--you say, I am going to allocate $20 to the kind of 
seasonal diseases I am talking about.
    You run those two programs over 10 years. Your productivity 
levels in the rural areas are going to be much higher in the 
second case than in the first case; and they are both health 
programs.
    You do the same thing with education--$100 on education for 
all, or girls' education. I am not saying that it is important. 
I am just saying that if you want to maximize the short term 
impact on growth, you have to look at what gives you the 
biggest return, faster and sooner.
    So $100 on general education issues or $100, including $20 
on vocational training and work force development over $10 
years, puts you also somewhere else on the gross horizon.
    So these are the kinds of issues that we ought to be 
looking at. Now why is it important? It is not from the growth 
point of view. Currently, we have a lot of competition between 
Ministers of Agriculture and Health and Education. The dollar 
going to health education is seen as being lost to agriculture, 
and this should not be.
    If they can find out the composition of health services and 
education services that maximizes growth in agriculture, then 
what they discuss and negotiate about is not going to the other 
sectors; but the use of the money is going to the other 
sectors. You have a totally different ballgame.
    I think both in terms of budget negotiation and in growth 
outcome, you will be in a much better position. That is how we 
can maximize the return we get from the dollars we invest; not 
just investing in health because it is good, in education 
because it is good. So nobody is going to disagree with.
    But can you get health and a little bit more growth? Can 
you get education and a little bit more growth? And you get to 
the safety net, I will tell you that those education services 
and health services that give me the biggest return in terms of 
growth, as well.
    Mr. Payne. Yes.
    Ms. Turshen. I understand and appreciate Dr. Badiane's 
argument. But it seems to me that once again this kind of 
instrumental use of health services to achieve other goals is 
the same sort of thing we saw in family planning. If you reduce 
population growth, you will have better distribution of income; 
or if you take care of the AIDS epidemic, you can also release 
the productive age group to once again participate in 
development.
    And I must say, Dr. Badiane, I know exactly what you are 
talking about. Because I remember distinctly in Tanzania, going 
into a village which grew sugar cane; and the crop was ready 
for harvesting. The mill nearby was ready to process it. The 
entire village was down with malaria. So I know exactly what 
you are speaking of.
    But if you are talking about a long term investment, this 
kind of short term, instrumental use of healthcare, I think, 
will not achieve it. Because what we need are basic health 
services that deal with all diseases, and not targeting 
specific diseases for another vertical program, which will just 
look at malaria, which is one of the examples that would be 
used; thank you.
    Mr. Payne. Yes?
    Mr. Radelet. I think that it may look like an instrument 
promoting health, and maybe it does a little bit.
    But what is the philosophy behind that? I think the 
approach to health services and social services, in general, in 
the context of a developing country should be very different 
from the approach in the context of a developed country.
    The reason being that in the context of a developed 
country, there are enough resources basically to look at 
services from their general point of view and entitlement point 
of view.
    In a developing economy, where you do not have enough 
resources to grow the pie and sustain the supply of the 
services, you have to link services to expanding the pie; 
unless you have an external sources that can allow you to 
supply the services and sustain the supply. Unless the pie 
grows, you are not going to be able to supply the service in 
the long run.
    So, yes, it may look like an instrument to use a bit. But 
it allows you to sustain your health services in the future. 
Unless you do it, you need a general term, and you will end up 
having lower levels of services in the future.
    I think that as long as we are dealing with health, we 
should be happy and satisfied. Nobody is talking about taking 
the resources from health; but targeting health a little bit 
better, so that you grow the pie and will be able to even offer 
more services in the future.
    Mr. Payne. Yes?
    Mr. Radelet. If I can add to that briefly, I think that Dr. 
Turshen raises an important point and is correct; that in the 
long run, what we need to do is build health systems. I do not 
think there is any question about that.
    What that runs up against is that I think the political 
reality, that individual people--taxpayers in the United States 
and in many developing countries themselves, and Members of 
Congress--find it much easier to identify with very narrowly 
defined, very specific diseases.
    We put 2 million people on antiretrovirals. People 
understand that, and they can envision and they can support 
it--so many bed nets, so many people, so many people immunized.
    That approach does not lead to good health systems. But it 
does engender, I think, some support for funding and for 
programs. So there is a clear tension between those.
    I think that perhaps the way forward is to use the support 
for specific initiatives as a gateway to building the support 
to strengthen health systems more broadly. To take advantage of 
the support that people do have for malaria programs, or TB, or 
HIV/AIDS, or whatever it is--but make sure that those programs 
are defined broadly enough and allow the flexibility that that 
becomes a way to provide support for strengthening health 
systems and building that capacity in the long run.
    It is not a clean approach, and I realize that there are 
some compromises there. But I do think that the importance of 
building the health systems runs up against what I think is the 
political reality of people understanding and wanting to 
support more narrowly defined goals.
    Mr. Payne. Yes, Mr. O'Keefe and then Dr. Badiane.
    Mr. O'Keefe. Thank you, and I am going to agree with Dr. 
Radelet on the political point, and just add that I think that 
Dr. Badiane questions conceptually are very important and we 
should all be thinking about them.
    But what I am not comfortable with is that at the level of 
governmental donors, we would be answering them; and that these 
are the questions that rural people, urban people, citizens of 
countries in very diverse, changing, complicated situations 
need to be asking.
    Then we need to be helping to develop comprehensive, cross 
sectoral responses that in each of those situations are going 
to leverage progress in a particular sector in order to get 
labor productivity gains or other gains.
    We can ask those questions; but we are not the ones to 
answer them. We have got to help people locally answer them. 
Because if we try to come up with a cookie cutter answer here, 
it is just not going to work; so thank you.
    Mr. Radelet. Yes, Mr. Chairman, I was just going to clarify 
that the concept that I was discussing does not go against 
building health systems. Because laying infrastructure in the 
rural areas to be able to deliver those services ought to be a 
part of the health system in general. It is just how you target 
the services you deliver, and you build the system that you 
need for it.
    But the fundamental idea behind this is that in planning 
social services, heath, or education, or safety net, you ought 
to ought to also certainly consider the entitlement and needs, 
but go beyond it and look at growth and productivity.
    If you are a developing country, you have no time. You have 
no resources. You are just going to be focused on entitlement 
and need. You really have to go beyond that. That does not have 
to be a conflict. But you cannot have it in a way that you can 
have all of those three things; thanks.
    Ms. Turshen. It is fun when you have an argument among your 
witnesses. [Laughter.]
    I am possibly the oldest person on this table, and I would 
to say that I have heard this argument from the World Bank 
many, many times over the years.
    What happens is that the short term objective always pushes 
aside the longer term investment. The longer term investment in 
healthcare returns for 40 years, even after you decrease that 
investment.
    That has been true all over Africa, as well as in the 
National Health Service in Great Britain. You may think that 
this is expensive to do a long term investment now, when there 
are so many short term needs. But if you are looking at the 
long term, the investment can be for 40 years. So it really is 
important to do it; thank you.
    Mr. Payne. Well, I think that certainly, one of the 
problems is the lack of adequate funding for healthcare and 
other social needs in developing countries.
    I believe that the argument that President Thabo Mbeki in 
South Africa, when arguing about the devastation of HIV and 
AIDS, was really saying we need to have a whole health-care 
system, that is no worse than the rest.
    Of course, it was certainly having an impact on Botswana, 
right across the border. The life expectancy went from 61-39 
years of age. So, I mean, you do have to deal with some 
immediate goals, in addition to the fact that we certainly need 
to have a health-care system.
    At one time, it was inoculation, and children did live 
longer. We had one time a concentration on oral re-hydration, 
when UNICEF, back in the seventies, found that salt and sugar 
put together for about a dime, could really save a child from 
dying from diarrhea.
    So I think that we certainly need them both. I would hope 
that as the world becomes flat, and developing countries are 
finally able to benefit from the wealth that they have in their 
country. For example, assisting the country for diamonds to 
make the people in the Congo better off, rather than people in 
Belgium. I think those countries will be able to start to 
invest in health systems, along with, you know, the so-called 
donor countries. I call them partner countries, and just 
hopefully, we can get that gap closed.
    But the fact that you are really able to save a life, you 
know, a child dies every 30 seconds from malaria. You cannot 
say, Let us not get all the bed nets we can and put them up 
immediately. Because that will be a very inexpensive way, with 
other things that spring so forth, until we can find a vaccine 
perhaps to prevent malaria.
    Ms. Turshen. Mr. Payne, there was a study done in Latin 
America many years ago, where they undertook a survey of child 
mortality in nine countries; and then did a very high coverage 
measles vaccination campaign, because measles was found to be 
one of the major causes of death.
    Then they went back and re-did the mortality survey, and 
they discovered fewer cases died from measles. But guess what, 
mortality levels had not changed.
    So, yes, you may save a child from dying of measles. But 
that does not mean that you have actually changed the death 
rate among children.
    What will change the death rate is if there are enough 
health services. What will change death from malaria is 
development. So we come back to the issue of poverty reduction, 
which is really the basis of all of this.
    Mr. Payne. There is definitely no question about it. If we 
could ever get close to poverty reduction goals for 2015, we 
will do a whole lot.
    One thing that is unknown is that even though the mortality 
rate may have been the same, had it not been for that specific 
measles vaccination, the mortality rate may have been higher. 
So that is the unknown that we do not know.
    Let me just kind of get one or two last questions in. We 
have not spoken much directly about women; and I just wonder 
quickly, we cannot talk about health and all this without 
really, you know, highlighting the problems of women.
    I wanted the panel's opinion on what are the critical ways 
of ensuring a U.S. approach, and ensuring in our approach that 
activity includes and promotes women across the continent in 
terms of economic powers.
    We are talking about women within the household, 
involvement in microenterprise, small businesses, access to 
health services and educational services, all of which we say 
protect women against violence. Yes, Dr. Turshen?
    Ms. Turshen. Well, I am going to encroach on some of my 
colleagues' expertise, and I hope that they will pick it up. 
But I would like to start with the question of land ownership, 
and talk about women's need to have rights to land, as being 
one of the critical issues right now in Africa.
    We know that women farmers are the backbone of agriculture 
in Africa, and that most of them are losing out with transfer 
of titles usually to the head of household, which means men; 
and that as people move to cities and family structures are 
reorganized into more nuclear forms, women are also losing 
their rights to access land which often came from either 
fathers or husbands.
    So this question of how women are going to access land is 
really critical to food security and critical to basic 
malnutrition problems, which are the causes of so much death.
    The second question I want to address is general 
legislation to protect women against all forms of 
discrimination. I would highly recommend that Congress, once 
again, re-consider ratifying CEDAW; and also might re-consider 
ratifying the United Nations Convention on Economic, Social and 
Cultural Rights.
    You know, they split the convention on the declaration of 
human rights into two. We ratified the political rights, but we 
never ratified the economic, social, and cultural rights; and 
it would be really of great help in the fields of health and 
education, if we had ratified that convention and stuck to it.
    The third issue I would raise is direct healthcare for 
women. I think that your staff are very well aware of this 
problem, as are many committee members; there has been 
absolutely no progress made in lowering maternal mortality 
rates in Africa, and there is no reason for this; in the sense 
that we know very well what the causes are, and we know very 
well what the answers are. The answers are, more personnel, and 
particularly more personnel to assist women in child birth.
    That does not call for very high, expensive technology for 
hospital births. It really requires very broad based services 
with perhaps provincial clinics, where women in serious 
difficulty can go for delivery assistance. I think that if we 
could start looking at that, we would get very far.
    There are some other issues. You speak of the malaria 
vaccine. We have had a vaccine against neonatal tetanus since 
1981, but we still have hundreds of thousands of African 
children dying of neonatal tetanus every year. It requires one 
shot during pregnancy, to make sure the baby does not get 
neonatal tetanus and die from it.
    So there are examples like that of, not a broader 
technology, but rather broader based health services focused on 
women's needs, which really could accomplish a lot; thank you.
    Mr. Payne. Thank you. Mr. O'Keefe?
    Mr. O'Keefe. Thank you very much; two points--the first is, 
I think in terms of the basic health needs of women that Dr. 
Turshen has laid out, it is a question of resources. The models 
are there. Faith-based groups, government groups, other local 
groups have successful programs to improve material health, 
child health, maternal mentality.
    Also, we need to integrate into a comprehensive program, 
microenterprise, to work on livelihoods, and agriculture; it is 
a question of getting the resources to those programs so that 
they can scale up.
    The second point is, in Eastern Congo, CRS is supporting 
some of the healthcare of the women who have been terrorized by 
the sexual and gender-based violence. I would just say that the 
most important thing that we feel our Government can do is 
invest the diplomatic energy in ending those conflicts.
    For a number of years, we have felt that our nation has 
been distracted and taken its eye off the diplomatic ball, in 
Sudan and Africa, and has not been able to engage at the 
highest level.
    We would urge Secretary Clinton and the President to make 
sure that these conflicts do not fall off their diplomatic map. 
Because otherwise, there is not much that can be done 
unfortunately for the victims of this kind of violence, once it 
has happened. It needs to be prevented, and the conflict that 
drives it needs to be prevented.
    Mr. Payne. Thank you. Yes, Dr. Radelet?
    Mr. Radelet. Just quickly, to add one more and then 
underscore two other--to add to the list, of course, is girls' 
education from primary school throughout, and to really create 
the focus and provide the opportunities for girls to have 
educational opportunities throughout.
    That is a complicated issue, because it gets to issues 
around poverty for the family and their own income 
opportunities, which will allow families to allow their 
children, girls, to go to school for a longer period of time. 
It has to do with roads and other kinds of safe venues and 
methods of transportation, so girls can get to schools safely.
    It is a complicated issue. But I think it is central to 
providing the educational resources and, therefore, the 
economic opportunities for girls.
    I just want to underscore Dr. Turshen's point on land 
access, which is often under-estimated and not underlined 
enough. But this is crucial to provide women with the economic 
assets necessary for agricultural productivity in farming.
    Then Mr. O'Keefe's point on gender-based violence, we 
really can do more, I think, in simple ways of shedding light 
and opening up the dialogue, through things like billboards and 
newspaper advertisements, and radio talk shows, to force the 
issue out to be discussed more.
    Too often and, of course, you know again, in Liberia, 
during the war and the aftermath, this was just all too 
prevalent a problem. But a big step forward is to get people 
stop whispering about it, behind closed doors, and to get it 
out in the open. It is painful and it is hard. But that is, I 
think, a first big step. With relatively small steps, I think 
we can help support those efforts to bring that more out into 
the open.
    Mr. Payne. There is just question about domestic violence 
and all kinds of issues related to women, such as trafficking--
even here in this country--and in many of the new areas that we 
are hearing about. Dr. Badiane?
    Mr. Badiane. Mr. Chairman, I was just going to comment on 
that issue. I normally do not work on that. It is a very dicey 
field for me, because there are a lot of preconceived notions 
about gender and gender issues in Africa.
    And as an African male, if I start speaking, I lose my 
legitimacy somehow, of being objective. So I avoid it as much 
as I can; but I will talk about it here.
    First of all, I think the issues are very clear in area of 
maternal and child health. I mean, as Mr. O'Keefe said, we know 
the issue. It is an issue of resources and scaling-up, I do 
believe. That is very, very simple.
    There does not tend to be clear education; much less 
<greek-l>os  deg.than in health, but somewhat. It is more 
complicated in agriculture. I think that you often hear that 70 
percent of African farmers are women, and they are the pillar 
of African agriculture. It may be true in some countries. It is 
growing in a lot of our other countries.
    So I think that the approach here ought to be on a case-by-
case basis, and really tailored to the realities of the 
individual countries and societies. There are many countries in 
many sectors where female farmers are not even present.
    But one thing is clear, that 50 percent of the population 
at least are women, and they are key economic actors, and each 
and every actor ought to be creating the role and the scope for 
them to excel just like their male colleagues would do.
    But we cannot approach that with preconceived notions and 
sometimes actually perhaps not realistic. So it has to be based 
on real things and real obstacles on the ground so we can have 
real solutions to what is happening.
    Mr. Payne. Mr. O'Keefe?
    Mr. O'Keefe. I have just a very quick point which is, as I 
mentioned in my introductory statement, our partners are 
constantly calling our attention to the unemployed male urban 
youth.
    I think one of the things, in terms of stability, that is 
going to create the conditions where we do not have this kind 
of sexual and gender-based violence, conflict driven, is 
getting at this problem of employment of the growing number of 
uneducated young men.
    So we have to look at, the gender lens has two sides to it, 
and we need to look at both sides, for the benefit of both men 
and women; thank you.
    Mr. Payne. Well, I wanted to mention that also just in the 
next to area that I wanted to touch on. I did not think we 
should leave without specifically dealing with women as gender.
    The urban problems, you raised it, and I think that 70 
percent of slum dwellers make up 70 percent of African 
residents; and you have places like Cabetta in Nairobi, where I 
just wonder, how do you penetrate the concentration of people, 
the lack of health services, the lack of adequate living 
conditions?
    Does anyone have anything they would like to mention? We 
always talk about rural areas. We talk about access to roads. 
We talk about the inability of people to receive services. What 
about the urban problem, as one that has been touched on with 
the urban youth and the lack of employment. Would anyone like 
to make a quick comment on that? Yes, we can go right down the 
line.
    Mr. O'Keefe. I yield to Dr. Turshen.
    Ms. Turshen. Thank you, Mr. O'Keefe. I would like to say 
that obviously you have hit on a crucial problem that we are 
going to be facing very quickly. Because Africa is transforming 
rapidly into an urbanized continent, from being so long with 
more people living in rural areas.
    The slum situation has really grown to epidemic 
proportions. The lack of planning of cities, the lack of 
sanitation, the lack of infrastructure--not just roads, but 
sanitary infrastructure and, of course, heath clinics, is a 
critical problem that the cities will have to address. It seems 
to me that part of the problem of building basic health 
services is precisely to do something in the slums.
    One of the experiments I saw in Zimbabwe, which I thought 
was extraordinarily successful, was the medical school taking 
first year medical students out to the slums, assigning them a 
family to follow throughout their medical education, so that 
they became totally familiar with the problems in the slum 
areas that people were facing in their day-to-day lives.
    Another experiment in Zimbabwe was with very innovative 
systems of latrines called the Blair Toilets and that this was 
a system that was developed in Zimbabwe. It answered the 
conditions of urban Zimbabwe, and could also be expanded.
    So I think that there are both problems on the horizon, but 
solutions within the countries, which lead to solving them; 
thank you.
    Mr. Badiane. Mr. Chairman, urbanization is bringing two 
problems with respect to poverty, actually. One is, poverty is 
becoming more and more of an urban phenomenon. It was not so 25 
years ago. It was primarily and almost exclusively rural.
    At the same time actually, urbanization is dismantling the 
traditional social protection systems in Africa, which were 
family based. The more people in the urban areas, the less 
actually they invest in those family-based social protections.
    Yet, the African states do not have really a lot of 
experience or a good track record in social protection. Now you 
are having a larger number of poor people in areas where they 
should need social protection. But the fact that they are 
increasing in numbers in those areas are tearing down the 
social protection fiber of this society.
    So I think the next crisis in Africa, a base one to come in 
the next 15 years or so, is going to be social protection. 
African countries have no experience, like the American 
countries have done or Asian countries have done. We were lucky 
that we can rely on the family systems to that. But that is not 
going to work in the 10-15 years.
    So if there is anything, I think, a smart African 
Government would do right now, it is to try to think about how 
to develop the social protection policies to tackle poverty, 
which is going to be an urban phenomenon, to a large extent, in 
the next 15 years or so.
    Mr. Radelet. Let me, if I can add to that a little bit, 
part of addressing the urban problems is creating better rural 
economic opportunities, which gets us back to our earlier 
discussion about agricultural productivity and roads and 
everything else.
    One reason people leave the rural areas is because there 
are not the economic opportunities. So that is one piece to 
this.
    But that is not going to make it go away. The problem is 
here to stay, and it is part of what has been the process of 
what we call economic development over the last 200 years. It 
happened in Europe. It happened in the United States, and will 
continue to happen, I think, in developing countries.
    So you want to try to address it, and try to minimize some 
of the problems that Dr. Badiane and others have mentioned.
    Part of this is infrastructure, which we talked about 
before, and creating solid urban infrastructure of roads and 
ports; the water systems and power and other basic needs that 
people need.
    We are not all that well suited, as a bilateral aid agency, 
to do this. I think this is an important role for the multi-
lateral development banks, the World Bank, and in particular 
the African Development Bank.
    I actually believe that if the African Development Bank 
became just an infrastructure bank, it would really help in 
many ways.
    You mentioned earlier, politically, it is a little harder 
to get people excited about infrastructure projects, and that 
is true, I think, for bilateral agencies. But I think that 
lends itself to multi-lateral agencies to really focus on that. 
So part of this is an infrastructure issue.
    But then finally, to complement the social services, we 
need to think about economic opportunities for urban dwellers. 
The classic solution to this, over the last 30 years, is 
manufacturing; and particularly, manufacturing exports, which 
is what the Asian countries have done with a range of products 
of shows and textiles and footwear and toys and everything 
else.
    That has had some downsides, along with the upsides of 
literally creating millions and millions of job for people and 
bringing them out of abject poverty.
    The world is changing right now. We do not know, in the 
aftermath of this crisis and the rise of China and India, 
exactly what the right economic opportunities will be for 
Africa.
    I suspect it will be in more services and using new 
technologies of the Internet; of data entry, of call centers, 
of cell phone use, and other kinds of things that we cannot 
quite yet imagine that would create economic opportunities for 
the urban dweller.
    So I do not want to suggest that I know the answers; or 
that the answers were what exactly that Asia did 30 years ago. 
But I do believe that a big part of the solution has to be 
creating economic opportunities for low skilled workers, to 
begin with, and over time to create new opportunities as those 
skills rise.
    So it is going to take a combination of the infrastructure, 
the basic services, and the economic opportunities, to address 
this problem.
    Mr. Payne. Mr. O'Keefe?
    Mr. O'Keefe. Just very quickly, I appreciate Dr. Radelet's 
comment on strengthening the rural sector as part of limiting 
the growth of the urbanization and the problems that we have 
discussed.
    Just quickly, the faith institutions can play a role in the 
social protection in urban areas. The rapid changes and the 
systemic changes that Dr. Badiane talked about are things that 
are above our pay grade, so to speak. But I think that we can 
play an important mediating role in creating the conditions of 
social protection to more people than would otherwise be.
    Finally, we are trying to adapt things like microenterprise 
to be more successfully used in those urban environments; and 
there are some very creative efforts by CRS and by many other 
groups to do so, and those will help, as well. They are not 
going to be able to soak up all that excess labor. But they are 
going to be able to help thousands and thousands of people to 
find opportunity and to make a livelihood and, therefore, to 
care for their families.
    Mr. Payne. Finally, I just wonder if anyone has any ideas 
about education in general. We are looking at a higher 
education bill to try to see if we can assist tertiary 
education.
    We know that many countries have said that they will open 
up their schools to the girl child. Many of the first women in 
Africa, and President Museveni's wife and others, have stressed 
the girl child and education.
    In addition, in some instances, the classroom had twice as 
many students and still the same number teachers. So we have 
not seen the growth, you know, in a planned manner.
    What are your ideas about just education in general--
elementary, secondary, and higher education? If the U.S. could 
be of assistance, what do you think would be the best way to 
go--school buildings? Would anyone like to tackle that? Yes, 
Dr. Turshen?
    Ms. Turshen. Congressman Payne, I would like to give an 
example of a country which achieved remarkable changes in 
girls' education, and that is Algeria.
    With the nationalization of the oil resources, Boumedienne, 
who was head of the country at the time, decided that he would 
invest in secular co-educational programs, free of charge, from 
primarily school through tertiary education, with enough 
resources from the income from oil to meet basic needs of 
families. So the need to put children out to work, as one finds 
in Morocco, with 3- and 5-year-old girls in the marketplace 
working, in Algeria, they all went to school.
    They went to school with their brothers' boyfriends, and 
they continued their education through law school, medical 
school. They became the journalists, the doctors, the judges, 
et cetera, in quite high proportions. I mean, I am speaking of, 
maybe half the doctors are women. Maybe half the lawyers, 
certainly a third of judges, a significant proportion of 
journalists, are all women in that country today.
    So there are precedents, in Muslim countries, where people 
had been reluctant to send girls to school, where this can be 
accomplished.
    So, as I said, the tug of war between, on the one hand, the 
push to early marriage, and the pull of helping out in work, 
either paid or unpaid, at home or in the factory, must be 
resolved by some poverty reduction, free education--and in this 
case, Algeria also offered free healthcare, by the way--which 
allowed girls to continue their education and then delay 
marriage.
    So the average age at marriage became upwards of 25, 26, 
27, 28. It is just an example of how a government can invest in 
educational services and be successful; thank you.
    Mr. Payne. Yes?
    Mr. Badiane. Mr. Chairman, I think that we have both a 
problem of supply and quality in the education sector. I think 
the U.S. can help expand the education infrastructure, reaching 
into the rural areas; but also in the urban centers, where the 
numbers of school children in classrooms are just skyrocketing.
    There is also an issue, particularly in Anglo and Eastern 
Africa. School costs too much for families. Elementary and 
secondary schools--I think if there is anything you can do in 
terms of policy, dialogue, and diplomatic moves to get those 
governments to understand that investing in childhood education 
ought to be actually something that the government ought to be 
doing and looking at it as a priority.
    Asking poor families to pay for the little boy to go to 
elementary school, I think, does not make sense. I do not know 
how much money they save in the budget that can legitimize 
doing something like that.
    At the tertiary level, I think it would be good to have a 
program that facilitates joint venturing between United States 
education, institutions of higher learning, and African 
universities.
    You could have funding for scholarships for education, 
based in Africa, for example; having somebody come over here. 
If I look at my case, I did not study in the States. But it 
takes a lot of time. By the time you leave your country, to 
learn a new language, to get used to the area, to go to school, 
to get a Ph.D., it is about 10 years.
    If you had an Africa-based program that facilitated access 
to the same kind of faculty and teachers here, you can get the 
same outcome within 6 years, okay? The scholarship and the 
money, one would have to spend here to go to a university here. 
Probably with that 1 percent, you get four or five students 
trained.
    So I think there is scope and room for that kind of joint 
venturing between universities in the United States and 
universities in Africa. Particularly at this stage, private 
universities are thriving very well in Africa. A synagogue is 
developing into a regional learning center. Nobody believed it 
15 years ago, when the first professor started constructing a 
private university.
    But I also think that we have to go beyond primary, 
secondary, and tertiary. I really do believe that vocational 
training and work force development, in support of agriculture 
and agribusiness is going to be important.
    You were asking, Mr. Chairman, is Africa going to be a 
major player in the global agricultural commerce in the next 
years to come. Looking at the trends in China, in India, and 
others, I think unless we have the work force development and 
the vocational training to raise productivity levels and 
competitiveness in African agriculture, it is going to be very 
difficult to be a major global player.
    China is going to have a problem competing down the road. 
Water is getting more expensive. Land is getting more 
expensive. The seller is getting higher, and India, the same 
thing.
    So I think that Africa does have an opportunity to be a 
major player in global agricultural commerce. But investments 
in technology, in infrastructure, in agribusiness system are 
going to be required for them to do that. If that is done, they 
can play a major role in these markets; thank you.
    Mr. Payne. Yes?
    Mr. O'Keefe. Our experience is more in the most remote sort 
of rural areas in terms of education, where we find that the 
building or the physical infrastructure is not so much the 
constraint as is the qualified teacher, and the organizational 
support through some sort of organization that allows for 
parents to take ownership of the education of their children. 
That is point number one.
    Point number two is just that the documentation between the 
increase in education, particularly for girls, and agricultural 
productivity seems fairly clear; that the more investment in 
agriculture in girls who end up being farmers, the greater 
their productivity in terms of their agriculture. So there are 
complimentary benefits in education of girls in rural areas; 
thank you.
    Mr. Payne. Right, and vocational education--does anybody 
have any specific comments on that, the trades and, you know, 
that whole crafts area; yes?
    Mr. Badiane. I was just emphasizing that. Because the way 
it is being handled in Africa there is a project based 
vocational training project in one part of the country. Five 
years later, it is in the northern part of the country; 10 
years later, down in the center. There is nothing systematic 
about it. It just does not make sense.
    Second, agriculture is being really a knowledge-based trade 
in the 21st century. Bio-technology, modern practices of saving 
the environmental, cultural practices--all those things are 
changing, developing practices.
    One good way to really cut corners and make quick progress 
is to upgrade the skills of the African farmers; especially 
small holders. What it does for you, it makes agriculture cool 
again for the younger generation.
    You saw some of the rural urban migration that you have. So 
I think that vocational training ought to be mainstreamed and 
become part of the regular education ministry's job; that the 
way they plan for primary, secondary, and tertiary education, 
they ought to be planning systematically for vocational 
training and education.
    There are examples, and unfortunately there are not many in 
Africa; but outside of Africa. There are a lot of examples that 
can be brought to bear.
    I am just facilitating now a learning mission to Germany, 
led by the Federation of Farmers Organization in Africa. We 
asked some of our staff members to go and look at Germany's 
experience in vocation education training and work force 
development.
    It is an advanced agriculture system; but they have that 
across the country, and it is private sector based. Certainly, 
the governments can help develop that. But I think there is 
room for it, and it ought to part of the education systems; 
thank you.
    Mr. Radelet. Mr. Chairman, I am glad that you have raised 
the issue of education. I was a high school teacher for 4 years 
myself; 2 of which were in an all girls school in a tiny 
village, in a little island in the middle of the South Pacific. 
So I am very conscience of the importance of these issues and 
how they have been neglected over time.
    I applaud, in recent years, the beginning of a shift toward 
a focus on tertiary education. But I do so with a bit of a 
concern. That dates back to our history 30 years ago, when the 
pendulum was on the other side; when there was a big focus on 
tertiary education, very little on primary, and there were 
problems with funding for tertiary education going for the 
elite and for children of government officials, and not really 
for the poorest members of society. It was not an equal access, 
open opportunity.
    Then the pendulum shifted back toward basic education, and 
for good reasons; because we were not getting kids and we were 
not getting girls into primary schools.
    But in the intervening 30 years, the quality of 
universities and colleges in Africa has just completely 
diminished. So many schools that were great universities 30 
years ago, missionaries and others, are just a shadow of what 
they once were.
    So we need to find that better balance; and that balance is 
going to be different in one country from the next. We do not 
want to move resources into tertiary education at the expense 
of primary education, and we have got to find that balance.
    There are several ways we can do it. Dr. Turshen earlier 
reminded us rightly, that as we look for new technologies and 
work with universities in the United States, that we need to do 
that partnering and building the capacities of university 
research centers in Africa, both of the tertiary and also for 
of primary.
    For primary, one of the things I think the United States 
should be focusing--I not sure we should be focusing on 
building schools, per se. Again, I would actually thing the 
MDBs, the multi-lateral development banks, are a better place 
to do that. But I think we can focus on teacher training, on 
curriculum development, on those kinds of issues.
    One of the big problems is teacher quality and pay, and the 
incentives for teachers. There are so few well trained 
teachers, and they do not have the incentives; because they are 
paid lousy amounts, and they are not given the resources, and 
it is not a particularly rewarding career path.
    So working with countries to devote the resources necessary 
so that teachers are well trained and are well paid to make it 
a profession that will attract good people I think is just as 
important as building the schools, et cetera, and I think it is 
a place where the United States can be helpful.
    Mr. Payne. Well, let me thank all of you first of all for 
your patience and indulgence. Of course, I might try this every 
time, because I have all the time, and I do not have to share 
it with my other colleagues. So you can really have a pretty 
thorough and efficient hearing, not that they do not add to it, 
but if they do add to it, then it is less time for me.
    But I really appreciate all of your indulgence. I think 
that what you have stated has been very, very helpful. I just 
had an opportunity to be able to focus on Somalia, where all of 
these things regarding assistance have been neglected, and 
people wonder why there is anti-social behavior on the part of 
the population.
    So all of the things that we have mentioned here need to 
start, starting right at Mogadishu, and going throughout 
Somalia. When you abandon and neglect a place totally, then you 
get a certain result. Hopefully, we will be able to re-engage 
Somalia, but also expand our programs, as you have mentioned 
throughout the continent.
    So I thank all of you for the years of work that you have 
done on the continent, and we will keep the pressure on. With 
that, this hearing stands adjourned. Thank you.
    [Whereupon, at 4:46 p.m., the subcommittee was adjourned.]
                                     

                                     



















                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
